<html>
<title> - EPA'S PROPOSED OZONE RULE: POTENTIAL IMPACTS ON MANUFACTURING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





     EPA'S PROPOSED OZONE RULE: POTENTIAL IMPACTS ON MANUFACTURING

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                AND THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2015

                               __________

                           Serial No. 114-56




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-678                        WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






































                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Missouri               JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Vice Chairman          GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
                                 ------                                

           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
LEONARD LANCE, New Jersey              Ranking Member
  Vice Chairman                      YVETTE D. CLARKE, New York
MARSHA BLACKBURN, Tennessee          JOSEPH P. KENNEDY, III, 
GREGG HARPER, Mississippi                Massachusetts
BRETT GUTHRIE, Kentucky              TONY CARDENAS, California
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  G.K. BUTTERFIELD, North Carolina
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            FRANK PALLONE, Jr., New Jersey (ex 
SUSAN W. BROOKS, Indiana                 officio)
MARKWAYNE MULLIN, Oklahoma
FRED UPTON, Michigan (ex officio)
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     3
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     4
    Prepared statement...........................................     5
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     6
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................   124

                               Witnesses

Ross E. Eisenberg, Vice President, Energy and Resources Policy, 
  National Association of Manufacturers..........................     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................
Erin Monroe Wesley, Executive Vice President and Chief Operating 
  Officer, Baton Rouge Area Chamber..............................    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................
Robert L. Glicksman, J.B. And Maurice C. Shapiro Professor of 
  Environmental Law, George Washington University School of Law..    42
    Prepared statement...........................................    44
    Answers to submitted questions...............................
Gregory B. Diette, M.D., Professor of Medicine, Johns Hopkins 
  University School of Medicine, on Behalf of the American 
  Thoracic Society...............................................    60
    Prepared statement...........................................    62
    Answers to submitted questions...............................
Louis Anthony Cox, Jr., Ph.D., President, Cox Associates.........    66
    Prepared statement...........................................    68
    Answers to submitted questions...............................
Stacey-Ann Taylor, Director, Product Stewardship, Henry Company..    82
    Prepared statement...........................................    84
    Answers to submitted questions...............................
Michael Freeman, Division President, The Americas WD-40 Company..    89
    Prepared statement...........................................    91
    Answers to submitted questions...............................

                           Submitted material

Letter of March 9, 2015, from Dr. Keet to the Hon. Barbara Boxer, 
  submitted by Mr. Rush..........................................   126
Letters to EPA Administrator McCarthy, submitted by Mr. Whitfield   128
Statement of the American Chemistry Council, submitted by Mr. 
  Whitfield......................................................   156
Statement of the American Forest & Paper Association.............   160
List of selected stakeholders supporting retention of the 
  existing ozone standard........................................   162

 
     EPA'S PROPOSED OZONE RULE: POTENTIAL IMPACTS ON MANUFACTURING

                              ----------                              


                         TUESDAY, JUNE 16, 2015

                  House of Representatives,
                  Subcommittee on Energy and Power,
                                             joint with the
Subcommittee on Commerce, Manufacturing, and Trade,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:15 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee on Energy and Power) 
presiding.
    Members present: Representatives Whitfield, Shimkus, 
Burgess, Blackburn, Latta, Harper, Lance, Guthrie, Olson, 
McKinley, Kinzinger, Griffith, Bilirakis, Johnson, Ellmers, 
Flores, Mullin, Hudson, Rush, Schakowsky, Butterfield, 
Sarbanes, Welch, Yarmuth, Clarke, Loebsack, Kennedy, Cardenas, 
and Pallone (ex officio).
    Staff present: Clay Alspach, Chief Counsel; Will Batson, 
Legislative Clerk; Leighton Brown, Press Assistant; Allison 
Busbee, Policy Coordinator, Energy and Power; James Decker, 
Policy Coordinator, Commerce, Manufacturing, and Trade; Melissa 
Froelich, Counsel, Commerce, Manufacturing, and Trade; Tom 
Hassenboehler, Chief Counsel, Energy and Power; Kirby Howard, 
Legislative Clerk; A.T. Johnston, Senior Policy Advisor; Peter 
Kielty, Deputy General Counsel; Paul Nagle, Chief Counsel, 
Commerce, Manufacturing, and Trade; Mary Neumayr, Senior Energy 
Counsel; Dan Schneider, Press Secretary; Lisa Goldman, 
Democratic Counsel; Michael Goo, Democratic Chief Counsel, 
Energy and Environment; Tiffany Guarascio, Democratic Deputy 
Staff Director and Chief Health Advisor; Caitlin Haberman, 
Democratic Professional Staff Member; Ashley Jones, Democratic 
Director of Communications, Member Services and Outreach; Adam 
Lowenstein, Democratic Policy Analyst; John Marshall, 
Democratic Policy Coordinator; and Alexander Ratner, Democratic 
Policy Analyst.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call the hearing to order 
this morning and certainly want to thank our panel of 
witnesses. We appreciate your being here with us this morning 
to discuss the proposed ozone rule. As you know, we have had a 
number of hearings on this subject matter, and today we are 
doing a joint hearing with the Subcommittee on Commerce, 
Manufacturing, and Trade. And each one of us that will be 
giving opening statements will be given 3 minutes, and then I 
am going to introduce each one of you individually right before 
you give your opening statement, and you will be give 5 
minutes. We get 3, you get 5. But then we will have the 
opportunity to question you as well. So thanks for being with 
us. And at this time I would like to recognize myself for an 
opening statement.
    We have watched the Obama Administration propose and 
finalize a litany of rules for more than 6 years now, and I 
can't tell you now how many hearings we have held. I and many 
others have come to the conclusion that EPA is no longer an 
independent and impartial arbiter of our environmental laws but 
has become a politicized extension of the White House to 
implement the President's Clean Energy Plan.
    When EPA testifies, they always refer to the EPA's 
Scientific Advisory Committee. Now this is a body appointed by 
EPA. The public does not really have any idea who is on this 
Advisory Committee, and truthfully, we all understand the 
importance of science but whether or not they are independent 
and impartial or have they also become a politicized arm of the 
White House.
    Now, the reason given for adopting a more stringent ozone 
rule relates to healthcare which is vitally important. To quote 
Ms. McCabe, a 70 parts per billion standard would prevent an 
estimated 330,000 missed school days, 320,000 asthma attacks, 
and 710 to 1,400 premature deaths. Now, that is an important 
statistic, all of those are, and one that we all would applaud. 
But today it is a lot different when this Clean Air Act was 
first administered, and it is important that we understand that 
cost.
    We have listened to many experts over the past 6 years who 
have pointed out that there is a direct correlation between 
poverty and healthy living. That also is important because EPA 
in its Scientific Advisory Committee do not consider the impact 
of these regulations on jobs. In April of this year, the Global 
Market Institute, an arm of Goldman Sachs, concluded a study 
that found for example that the number of small businesses 
which has been the backbone of America prosperity, the number 
of small businesses between 2009 and 2014 declined by 600,000. 
Usually after an economic crisis there is a slow increase. But 
that is not the case in small business. There are 600,000 less 
today than 2009 and 6 million fewer jobs. In fact, small 
business jobs have been declining at roughly 700 per month the 
last 3 years for which statistics are available. And this 
report goes on to say the reason for this is one, the 
availability of credit and the high interest cost, the high 
cost of capital because of banking regulations that came out of 
the crisis. In addition, it specifically lists other 
regulations relating to healthcare, relating to the 
environmental issues throughout our government.
    And so the point is this. Yes, there is a benefit in 
healthcare with new regulations on ozone, but we have to also 
consider the impact of people and their families who have lost 
jobs and the impact on their healthcare. There has got to be 
some discussion about that as well.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    This morning, I am pleased to be partnering with the 
Subcommittee on Commerce, Manufacturing, and Trade in our 
review of EPA's proposed new ozone standard. The focus of 
today's hearing is the impact of the proposed rule on America's 
manufacturing sector.
    We have watched the Obama EPA propose and finalize rules 
for more than 6 years now, and a familiar pattern has emerged. 
The agency is inclined to overstate both the extent and the 
certainty of the benefits, while downplaying the costs. At the 
same time, the concerns of state and local governments tend to 
be ignored, as do the issues raised by affected manufacturers.
    The proposed ozone rule has all of these flaws, plus one 
more--the agency already has a stringent rule on the books that 
it has barely begun to enforce. The ozone rule was strengthened 
in 2008, but the Obama EPA delayed taking action to implement 
this rule until quite recently. In fact, EPA did not publish 
its implementing regulations until last March. As a result, 
states are only in the initial stages of formulating their 
implementation plans for this standard.
    Now, with the ink barely dry on implementing regulations 
for the existing standard, EPA is proposing an entirely new 
one. Back in 2011, the President explained his decision not to 
move ahead with a new ozone standard by explaining that ``I 
have continued to underscore the importance of reducing 
regulatory burdens and uncertainty, particularly as our economy 
continues to recover.'' Well, our economy still continues to 
recover, and this proposed rule certainly won't help.
    Most of the compliance burden would fall on manufacturers 
and energy producers. Indeed, much of Americas' manufacturing 
capacity will be in counties likely to be designated as 
nonattainment under the proposed rule. A nonattainment 
designation makes it very difficult to permit a new or expanded 
facility, and may impose significant costs on existing 
manufacturers. A study from the National Association of 
Manufacturers estimates costs of $140 billion dollars annually 
and 1.4 million job losses as a result of this rule.
    As we will learn today, many manufacturers have already 
reduced their emissions of ozone-forming compounds, and 
continue to do so. But by pushing too far and too fast, the new 
rule could jeopardize jobs and affect the quality and price of 
several everyday items that consumers need. I look forward to 
learning more about this proposed rule from the manufacturers 
who would be on the front lines of compliance.

    Mr. Whitfield. At this time I would like to recognize the 
gentleman from Illinois, Mr. Rush, for his 3-minute opening 
statement. I am sorry. At this time I would like to recognize 
the gentlelady from Illinois, Ms. Schakowsky, for 3 minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Chairman Whitfield and Chairman 
Burgess, for holding this hearing, and despite my great 
affection for Chairman Whitfield, I have to say that I don't 
agree at all that the EPA is operating in a political manner. 
And let's make it clear: The EPA is responsible for setting 
ozone standards based on what is considered safe from a public 
health perspective. The compliance costs to business are not to 
be considered in its rule-making.
    Health experts, epidemiologists, numerous medical 
organizations have clearly stated that the current ozone 
standard of 75 parts per billion is not adequate to protect 
public health, particularly for vulnerable populations such as 
children, the elderly, outdoor workers, those with chronic 
medical conditions like asthma. The EPA has indicated its final 
rule due in October will likely land somewhere between 65 and 
70 parts per billion. I strongly support EPA action on this 
issue, although I believe a 60 part per billion standard would 
be more effective to protect the public health.
    The existing standards are not doing enough to protect 
public health. In my home State of Illinois, 13 percent of 
children, 13 percent, suffer from smog-related asthma, well 
above the national average. In response to mounting medical 
evidence and Clean Air Act requirements, the federal courts 
rightly directed the EPA to reconsider existing inadequate 
health protections against smog last year. Let me repeat. This 
rule-making is court mandated. Federal law requires the EPA to 
maintain clean air standards, and the courts have said it must 
do more to meet that requirement.
    While anticipated business compliance costs have no place 
in determining ozone standards, industry concerns about the 
impacts of rule-making are overblown. We will hear from some of 
our witnesses that proposed ozone standards would stifle 
manufacturing, investment, and expansion. That argument is not 
new but it is flawed. Since the Clean Air Act was enacted into 
law more than 40 years ago, we have seen tremendous progress in 
cleaning up our air and in protecting thousands of communities 
around the country. That has been done in concert with 
technological innovation and a growing economy.
    Doomsday predictions about the impact of EPA regulations on 
American businesses have never been borne out by the facts. 
From 1990 to 2010 emissions of the most common air pollutants 
have declined by more than 40 percent while Gross Domestic 
Product has increased by more than 65 percent. These standards 
will save and improve American lives.
    I look forward to the EPA finalizing the rule and to the 
manufacturing sector to continuing its long record of success 
and expanding while at the same time complying with EPA 
regulations. Again, I look forward to hearing from our 
witnesses, to gain from their perspectives on this important 
rule-making, and I yield back the balance of my time.
    Mr. Whitfield. The gentlelady yields back the balance of 
her time. At this time I would like to recognize the gentleman 
from Texas, the Chairman of the Commerce, Manufacturing, and 
Trade Subcommittee that we are having the hearing with, Mr. 
Burgess. You are recognized for 3 minutes.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Chairman Whitfield, and thank you 
for agreeing to have this joint hearing with the Subcommittee 
on Commerce, Manufacturing, and Trade along with the Energy 
Subcommittee. So the Environmental Protection Agency's proposal 
to further reduce the National Ambient Air Quality Standard for 
ozone represents perhaps one of the most costly regulations the 
agency has ever imposed upon the United States' economy, and it 
is a recurring theme with the administration, an unprecedented 
and overly burdensome regulatory proposal while there is still 
ongoing debate about the science and the public health benefits 
of enacting such a rule.
    So again, I want to thank my counterpart on the Energy and 
Power Subcommittee, Chairman Whitfield, and I want to thank our 
panel of witnesses for joining us today to talk about both of 
our subcommittees' work on the impact of EPA's proposed ozone 
rule on manufacturing.
    The simple fact remains that this type of regulatory 
overreach may be injurious to America's families and jobs. As a 
physician, the health of all of our citizens is of significant 
importance to me as well as everyone on the committee, and we 
know from other conversations occurring throughout this 
committee, the cost of health care is a real concern for 
Americans. However, I have reservations about the science and 
the analysis utilized by the Environmental Protection Agency to 
support the proposed rule and whether it would be effective.
    The 43,000 comments filed with the Environmental Protection 
Agency about the proposed rule demonstrate that there is a lot 
of interest, there is a lot of activity, and there may not be a 
lot of certainty. There is important debate that needs to occur 
to identify the actual benefits to justify the effect on job 
creation.
    I have written to the Environmental Protection Agency on 
several occasions over the past few years on issues relating to 
the rule, most recently regarding the Clean Air Scientific 
Advisory Committee's evaluation of the risks and the tradeoffs 
of the ozone proposal. I remain concerned about the scientific 
process utilized by the Environmental Protection Agency to draw 
a causal inference about the impact of lowering the National 
Ambient Air Quality Standard from 75 parts per billion by as 
much as 5, 10, or 15 parts per billion.
    Given that the implementation for the regulations for the 
2008 standard of 75 parts per billion were only finalized 
earlier this year, what will be the proposed rule's impact on 
states and localities that are already dealing with non-
attainment including counties around the Washington 
Metropolitan Area and counties in the North Texas area?
    The National Association of Manufacturers estimates that 
for Texas this rule could result in 300,000 lost jobs and 
almost a $1,500 drop in annual household consumption. When 
there are disincentives to investment in a local economy, 
either from businesses looking to build and expand or from 
families trying to make ends meet, we have to pay attention. We 
have to ask the tough questions. There are going to be a lot of 
questions for the EPA and for our witnesses today. I am focused 
on learning about the expected impacts of the EPA's proposed 
rule and the effect on public health.
    Thank you, Mr. Chairman. I will yield back the time.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    Today we are again faced with a troubling theme we have 
seen time and time again from this Administration: an 
unprecedented and overly burdensome regulatory proposal when 
there is significant ongoing debate and little science around 
the public health benefits of such a rule. The EPA's proposal 
to further reduce the National Ambient Air Quality Standard for 
ozone represents one of the most costly regulations the agency 
has ever attempted to impose on the U.S. economy.
    I join Energy and Power Subcommittee Chairman Whitfield in 
thanking the panel of witnesses for joining us today to talk to 
both of our subcommittees about the impact of EPA's proposed 
ozone rule on manufacturing. The simple fact remains that this 
type of regulatory overreach is unsustainable for American jobs 
and families.
    As a physician, the health of all of our citizens is of the 
utmost importance to me, and as we know from all of the other 
conversations occurring throughout this Committee, the cost of 
health care is a real concern for Americans. However, I have 
serious reservations about the science and analysis utilized by 
the EPA to support this proposed rule and whether it would be 
effective. The 43,000 comments filed with the EPA about the 
proposed rule demonstrate that there is no certainty here. 
There is a lot of important debate that needs to occur to 
identify actual benefits to justify stifling job creation.
    I have written to the EPA on several occasions over the 
last few years on issues relating to the rule, most recently 
regarding the Clean Air Scientific Advisory Committee's 
evaluation of the risks and risk tradeoffs in the ozone 
proposal. I remain concerned about the scientific process 
utilized by EPA to draw causal inferences about the impact of 
lowering the NAAQS from 75 parts per billion to 70, 65, or even 
60 parts per billion.
    Given that the implementation regulations for the 2008 
standard of 75 ppb were only finalized earlier this year, what 
will be the proposed rule's impact on states and localities 
that are already dealing with nonattainment, including counties 
in my district around the Dallas-Fort Worth area?
    The National Association of Manufacturers estimates that 
for Texas this rule will result in over 300,000 lost jobs and a 
$1,430 drop in annual average household consumption. When there 
are disincentives to investment in a local economy, either from 
businesses looking to build and expand or from families trying 
to make ends meet, we have to pay attention and ask the tough 
questions. These are the types of scenarios that can decimate 
entire towns.
    It is a well-known fact that there are several states that 
are in non-attainment status today and are on an extended 
schedule to come into compliance. However, estimates show 
hundreds of additional counties that will be forced into non-
attainment when this proposed rule is finalized in October. By 
the EPA's own estimates, we are talking about a minimum of 
about 350 to 600 counties that would go from compliant status 
to non-attainment.
    I applaud my colleagues on Energy and Power for their 
oversight and scrutiny of this proposal. I am very interested 
to hear from the witnesses for WD-40 and the Henry Company 
about the impact of this proposed rule on their businesses. All 
the Members need to understand the potential for this rule to 
freeze economic growth in their districts.
    While there are lots of questions for the EPA to answer 
about these issues, today I am focused on learning about known 
or expected impacts of the EPA's proposed rule on 
manufacturing.

    Mr. Whitfield. At this time the chair recognizes the 
gentleman from Illinois, Mr. Rush, for 3 minutes.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, for holding 
this important joint hearing on EPA's proposed ozone rule and 
its potential impact on the manufacturing sector.
    Mr. Chairman, last week we heard from EPA's Acting 
Assistant Administrator for air and radiation, Janet McCabe, 
that lowering the ozone standard from 75 ppb would literally 
save lives while also preventing hundreds of thousands of 
missed school days and missed work days and preventing hundreds 
of thousands of asthma attacks.
    Today, Mr. Chairman, we will hear from industry groups that 
lower the ozone standard will cause great job loss, will damage 
our economy, and will lead to unprecedented costs. Well, Mr. 
Chairman, as policymakers, we are always searching to find the 
right balance between protecting our air and water through 
regulations without unnecessarily saddling industry with 
unreasonable burdens that might stifle growth. And today, Mr. 
Chairman, we will hear about competing studies with conflicting 
results on everything from potential health benefits to 
economic growth to the impacts on employment. However, I think 
it is instructive to look at how these types of regulations 
have played out in our most recent past, and if our most recent 
past is any indication, Mr. Chairman, then I am not fully 
convinced that this is an either/or proposition that we are 
confronted with, that Americans must choose between either 
economic strength or clean air. As Ms. McCabe noted in the 
hearing last week, Mr. Chairman, and I quote her, the history 
of the Clean Air Act actually shows us and all of those who are 
willing to take a look at it that the two things go together, 
two things go together. We have reduced air pollution 
dramatically in this country, and the economy has blossomed. It 
has grown.
    Mr. Chairman, this country and the businesses in this 
country have come up with pollution control technologies that 
employ American workers, and these new technologies have made 
us leaders in the world through selling this kind of 
technology.
    So I look forward to engaging the panelists so that we can 
both protect the public health by reducing ozone in our 
atmosphere, and we can also create most needed jobs and 
economic opportunities for American businesses and their 
families.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Whitfield. The gentleman yields back. At this time the 
Chair would recognize the Vice Chairman of the Full Committee, 
Mrs. Blackburn, of Tennessee for 3 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, and I thank all of 
our witnesses for the hearing today. This is indeed something 
that we want to drill down a little deeper on and look at these 
regulations. Everybody is for clean air and clean water, and 
there is no argument about that. What we have tremendous 
concerns about is when you get to the point of diminishing 
return. And that is something you will be able to help us with 
today. What we have found is if the EPA is not given to doing 
cost-benefit analysis, and Dr. Burgess referenced that and the 
injurious nature of some of these regulations at times and the 
harm that it does to business, the cost that is there, and the 
outcome that ends up not being delivered. And you are not, if 
you will, getting the bang for your buck when you look at these 
regulations.
    So I think that we will want to look at this cost. A 
trillion dollars? A trillion dollars is what the compliance 
cost is for this, for industry? What does that do to families? 
What does it do to jobs? What does it do to local communities?
    And those are questions that we are going to want to ask in 
addition to what does it mean to the environment. If you don't 
have jobs and if you don't have local, vibrant communities, you 
are not going to see people who are investing the time and the 
energy to clean up the environment or to innovate to find a 
better way.
    So we thank you for your participation. We look forward to 
your questions today. Yield back.
    Mr. Whitfield. The gentlelady yields back. At this time I 
recognize the gentleman from New Jersey, Mr. Pallone, for 3 
minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairmen Whitfield and Burgess and 
our Ranking Members Rush and Schakowsky, for holding this 
hearing. I also wanted to welcome all of our panelists.
    We heard some great things about the importance of the 
proposed ozone rule last week from EPA Acting Assistant 
Administrator Janet McCabe. Under the proposed standard, we 
would see tremendous public health benefits. EPA's new standard 
will avoid nearly 1 million asthma attacks, millions of missed 
school days, and thousands of premature deaths.
    EPA estimates these benefits would range from $13 to $38 
billion annually, outweighing the cost by approximately 3 to 1. 
In addition, it is consistent with the law and scientific 
evidence.
    The proposed ozone standard is part of a set of health-
based air-quality standards which make up the foundation of the 
Clean Air Act. These standards are based on scientific evidence 
alone and have been extremely effective in cleaning the air and 
protecting public health.
    The current 75 parts-per-billion standard is weaker than 
the facts would allow. So EPA has proposed based on a complete 
review of the scientific evidence to revise the standard to 
fall within 65 to 70 parts per billion as recommended. I am 
sure today we will hear more about the cost than the benefits, 
yet a unanimous Supreme Court opinion written by Justice Scalia 
made it clear that EPA's approach for determining a safe level 
of air pollution is correct and costs may not be considered.
    During today's hearing I urge everyone to keep in mind that 
the grossly inflated estimate of the rule's projected costs 
failed to consider any of the benefits associated with reducing 
ozone pollution. This ignores the real cost of poor air quality 
that are borne by those who breathe, especially children.
    We will also be told that EPA's proposed standard will have 
dire consequences for economic growth, but the history of the 
Clean Air Act is one of exaggerated claims by industry that 
have never come true. In reality, the act has produced public 
health benefits while supporting economic growth.
    As I said last week, EPA's ozone standard is long overdue, 
and this rule will help put us on the path to reaching the goal 
of the Clean Air Act, clean air for all Americans. Thank you, 
and I yield back my time.
    Mr. Whitfield. The gentleman yields back, and that 
concludes the opening statements. And at this time we will get 
to our panel of witnesses.
    And our first witness this morning is Mr. Ross Eisenberg 
who is Vice President for Energy and Resource Policy at the 
National Association of Manufacturers. And Mr. Eisenberg, you 
are recognized for 5 minutes.

  STATEMENTS OF ROSS E. EISENBERG, VICE PRESIDENT, ENERGY AND 
 RESOURCES POLICY, NATIONAL ASSOCIATION OF MANUFACTURERS; ERIN 
  MONROE WESLEY, EXECUTIVE VICE PRESIDENT AND CHIEF OPERATING 
 OFFICER, BATON ROUGE AREA CHAMBER; ROBERT L. GLICKSMAN, J.B. 
 AND MAURICE C. SHAPIRO PROFESSOR OF ENVIRONMENTAL LAW, GEORGE 
 WASHINGTON UNIVERSITY SCHOOL OF LAW; GREGORY B. DIETTE, M.D., 
   PROFESSOR OF MEDICINE, JOHNS HOPKINS UNIVERSITY SCHOOL OF 
  MEDICINE, ON BEHALF OF THE AMERICAN THORACIC SOCIETY; LOUIS 
ANTHONY COX, JR., PH.D., PRESIDENT, COX ASSOCIATES; STACEY-ANN 
   TAYLOR, DIRECTOR, PRODUCT STEWARDSHIP, HENRY COMPANY; AND 
MICHAEL FREEMAN, DIVISION PRESIDENT, THE AMERICAS WD-40 COMPANY

                  STATEMENT OF ROSS EISENBERG

    Mr. Eisenberg. Thank you. Good morning, Chairmen, Ranking 
Members, members of the subcommittees. I am pleased to 
represent the NAM, the world's largest industrial trade 
association here at today's hearing.
    Manufacturing is building communities and fueling growth 
all over America. The factory that our grandfathers worked in 
is really not what you see today. It has been transformed into 
a sleek, modern, technology-driven facility that strengthens 
communities and creates jobs for us and for our children. We 
are building cleaner and more efficient automobiles. We are 
using cleaner fuels, and we are operating better, more 
efficient factories. Since 1990, our NO<INF>x</INF> emissions 
have decreased 52 percent and VOC emissions by 70 percent. As a 
country, ozone levels have fallen nearly 25 percent since 1990, 
and the air is unequivocally better. This fact really has not 
escaped the public, either. Tomorrow, the NAM will release a 
poll showing that over \2/3\ of Americans rate their local air 
quality as excellent or good.
    Manufacturers support reducing ozone, and we believe in the 
mission of the EPA. But we come before Congress and this 
committee today seeking help. The EPA has proposed a regulation 
that pushes beyond the limits of what may be technologically 
feasible resulting in what could be the most expensive 
regulation ever. EPA has proposed new ozone standards for which 
you can only identify about 35 percent of the necessary 
technologies to achieve that new standard while relying on so-
called unknown controls for nearly 65 percent of the path to 
compliance. This is not a balanced policy, and it is not an 
achievable rule.
    We surveyed our members recently, and over 66 percent of 
manufacturers are concerned with how new ozone standards will 
impact their business. More than half of them, 53.5 percent, 
said they are not likely to move forward with projects in ozone 
non-attainment areas. But don't just take it from us. Take it 
from the hundreds of governors, lieutenant governors, 
environmental agencies, air directors, attorneys general, 
mayors, counties, cities, highway officials, state 
representatives, Democrats, Republicans, unions, industry 
groups, and chambers of commerce who have sent letters to the 
EPA or the White House asking for the current standard to 
remain in place.
    We recently asked the experts at NERA Economic Consulting 
to quantify the cost of this new standard set at 65 parts per 
billion. They found in fact that it would be the most expensive 
regulation ever: $140 billion annually in lost GDP, $1.7 
trillion overall, the equivalent of 1.4 million jobs in 
jeopardy, and $830 in annual cost to the average household.
    Now I am sure you will have questions about the study at 
the hearing, so let me try to answer some of them now. First 
off, NERA and EPA's assumptions in their studies are more or 
less identical. They both assume that the same final 
regulations will be in place going forward. They both assign 
the same cost to the known controls. They both assume in the 
base line that a certain amount of power plants will be retired 
due to market conditions, and they both assume that a large 
percentage of the technologies and strategies needed to attain 
the stricter standard will come from what EPA calls unknown 
controls. The primary difference between the two studies really 
is the cost of those unknown controls. EPA assumed a single, 
flat cost for those controls, $15,000 per ton. It is an 
assumption that we know based on experience and logic just 
isn't true. As a society, as we invest in controls to reduce 
emissions and get closer and closer to zero, the cost per ton 
of those reductions will necessarily increase.
    So what NERA did is they relied on evidence to drive a cost 
curve to estimate that steep incline as we start to get rid of 
the technologies that we know about. And if they can't figure 
out what those technologies are, then the cost to scrap, 
modify, or shut down certain equipment. Near the bottom of the 
cost curve is what we know the cost per ton for coal-fired 
power plants retiring. At the top then is the cost per ton for 
vehicle scrappage, sometimes referred to as cash for clunkers. 
My colleague at the GW University claims that no one ever 
really thought of vehicle scrappage as a pollution control 
technology until we came along with our study. I am very 
flattered by that, but it is also dead wrong.
    California has had a vehicle scrappage program in place 
since the 1990s. It is included in their SIP, their state 
implementation plan, for ozone. Texas also uses a vehicle 
scrappage program for its ozone compliance tool. It is called 
the Air Texas Drive a Clean Machine Program.
    As Professor Glicksman notes, as a pollution compliance 
strategy, vehicle scrappage is highly inefficient. But that is 
kind of our point. We have been so successful in reducing ozone 
levels that not only is the low-hanging fruit gone, the high-
hanging fruit is gone, too. We are playing in the margins now. 
All that is left are the controls that are not as cost-
efficient, and if we can't develop new controls in time, we 
will have to deal with the severe consequences of ozone non-
attainment that you are going to hear about today.
    So this is not a sensible regulation. It is especially 
frustrating when you consider that the implementation of the 
current standard has just barely begun, that EPA's proposed 
standard is approaching background ozone levels in many areas, 
and that the dozens of other laws and regulations on the books 
that limit NO<INF>x</INF> and VOCs will drive ozone levels down 
25 percent more in just the next 3 years. This doesn't have to 
be a choice between the environment and the economy.
    Two weeks ago the Energy and Commerce Committee worked 
together to unanimously approve a bill to modernize TSCA. It 
was a wonderful day. We ask that you work to find similar 
middle ground on ozone. Manufacturers cannot cope with the most 
expensive regulation in history, and we really hope that you 
will work together to help us find a solution to this problem. 
Thank you.
    [The prepared statement of Mr. Eisenberg follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
       
    Mr. Whitfield. Thank you, Mr. Eisenberg. I want you all to 
know that I am working the clock. I am introducing the 
witnesses. The next witness is Ms. Erin Monroe Wesley who is 
Executive Vice President and Chief Operating Officer of the 
Baton Rouge Area Chamber. Thanks for being with us, and you are 
recognized for 5 minutes.

                STATEMENT OF ERIN MONROE WESLEY

    Ms. Wesley. Thank you. Good morning. Good Morning Chairman 
Whitfield, Chairman Burgess, and members of the joint 
subcommittees. Again, my name is Erin Monroe Wesley. I serve as 
the Executive Vice President and Chief Operating Officer of the 
Baton Rouge Area Chamber. On behalf of BRAC's 1,400 investors 
and the region's business community, we stand before you today 
to express our significant concern regarding the proposed NAAQS 
rule issued by the EPA on November 25, 2014.
    The Baton Rouge Area Chamber adamantly opposes the proposed 
reductions in ambient air quality standards from the current 
level of 75 parts per billion. Our opposition is based on three 
main points: Number one, the proposed standards have already 
cost our region thousands of jobs and billions of dollars in 
capital investment. Two, the standards would drive 18 of the 
Nation's 20 top performing metropolitan economies into non-
attainment and damage U.S. competitiveness for business 
investment, especially foreign direct investment. And number 
three, the vast majority of U.S. counties will meet the EPA's 
proposed standards by 2025 with practices already in place.
    BRAC believes in and stands for cleaner air and 
environmental stewardship. For roughly 10 years, BRAC has 
supported and hosted the Baton Rouge Clean Air Coalition. On 
April 4, 2014, thanks in large part to the Coalition's efforts, 
the Louisiana Department of Environmental Quality announced 
that the EPA determined that the Baton Rouge Area attained the 
2008 8-hour ozone standard. The region has decreased ground-
level ozone, improving air quality and human health for its 
800,000 plus residents.
    Our successes and progress environmentally make the 
negative effects of the proposed standards even more painful. 
In 2014, BRAC worked with four chemical manufacturers that were 
investigating major investments in the region, including two 
companies that executed purchase agreements on large industrial 
sites with the intent to develop. Since the EPA first proposed 
lowering the ozone NAAQS, all four of these companies indicated 
that the proposed new standards influenced their decisions to 
look elsewhere or to otherwise not proceed.
    In other words, the proposed standards have cost this 
region at least 2,000 direct and indirect jobs and caused more 
than $7 billion in capital investment to be put on hold or 
moved elsewhere. Let me be very clear: These projects were put 
on hold or lost at the mere prospect of lowering ozone air 
quality standards to the 65 to 70 parts per billion range. 
Should these proposed standards be adopted, the Baton Rouge 
Area will be thrust into non-attainment status. Economic 
development professionals have projected that under this 
scenario, the Baton Rouge Area will not even be approached for 
these types of projects, much less compete for them.
    Baton Rouge would not be alone in suffering economically 
should the proposed standards be adopted. If the EPA were to 
lower the ozone standard to 65 parts per billion, all but two 
of the Nation's top 20 metropolitan area economies, as ranked 
by the Brookings Institution, would be relegated to non-
attainment status. These proposed standards would stifle the 
growth and investments in U.S. manufacturing, exports, and 
development taking place in metropolitan areas that have been 
the most successful in helping the country get back its footing 
economically.
    The proposed actions to lower the ozone NAAQS rule run 
counter to the U.S. Government's interest to grow the national 
economy, attract foreign direct investment, and increase U.S. 
exports.
    Clean air is a priority for the Baton Rouge Area's business 
community. Economic development and environmental stewardship 
do not have to be mutually exclusive goals. This region's 
businesses are committed to both, as evidenced by the efforts 
put forth to gain attainment status. Policies that have a 
significant adverse effect on local economies, as the proposed 
NAAQS rule does, should be enacted sparingly, only when 
absolutely necessary. Unfortunately, the rule at hand spares 
nothing, and is unnecessary.
    Despite the EPA's own assertion that a vast majority of the 
country will be in compliance with the regulations by 2025 
under the current regulatory scheme, the Agency seeks to enact 
rules that will immediately bring the punitive status of non-
attainment to areas around the country. We cannot stand by and 
allow our economy to be collateral damage.
    It is therefore the strong recommendation of the Baton 
Rouge Area Chamber that the National Ambient Air Quality 
Standards for ozone rule not be reduced from 75 parts per 
billion. Thank you.
    [The prepared statement of Ms. Wesley follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Mr. Whitfield. Thank you, Ms. Wesley. At this time I 
recognize the gentleman, Mr. Robert Glicksman, who is the 
Shapiro Professor of Environmental Law at George Washington 
University Law School. We appreciate your being with us this 
morning, and Mr. Glicksman, you are recognized for 5 minutes 
for your opening statement.

                STATEMENT OF ROBERT L. GLICKSMAN

    Mr. Glicksman. Chairmen Burgess and Whitfield, Ranking 
Members Schakowsky and Rush and members of the subcommittees, I 
appreciate the opportunity to testify today on why strong 
standards to reduce ozone air pollution are both necessary to 
fulfill the Clean Air Act's congressionally-mandated public 
health goals and consistent with a strong economy in which 
manufacturers can prosper and thrive.
    My written statement makes 4 key points. First, a strong 
national ozone pollution standard that fulfills the public 
health goals of the Clean Air Act will deliver significant 
health and environmental benefits.
    Second, regulations such as EPA's pending ozone standard 
can and do provide important economic benefits for U.S. 
businesses, including those in the manufacturing sector.
    Three, a frequently cited study purporting to find 
catastrophic economic effects from a strong ozone standard 
fails to provide a reliable accounting of the rule's potential 
impacts.
    And finally, to the contrary, the available evidence 
confirms that strong national standards for ozone pollution are 
not an impediment to economic growth.
    I will start with the first point. EPA's National Ambient 
Air Quality Standards have provided enormous benefits, but the 
need for more protective standards is clear. Ozone pollution 
adversely affects people of all ages including pregnant women, 
children, healthy young adults, and the elderly. EPA's rules 
reduce the incidence of impaired lung function and other health 
problems for all these populations.
    Ozone pollution control rules also strengthen the U.S. 
economy by preventing billions of dollars of damage to 
agricultural crops and forest products and through rubber 
textiles and paints. Controls and ozone precursor emissions 
also increase the productivity of America's current and future 
workforces by cutting the number of missed work and school days 
resulting from health problems linked to ozone exposure.
    Despite the air quality improvements achieved under EPA's 
current ozone standards, more than 140 million Americans 
continue to live in areas with harmful levels of ozone 
pollution. In a recent study of the National Center for 
Atmospheric Research projected that warming temperatures could 
cause the number of unhealthy ozone pollution days to increase 
70 percent by the year 2050. As a result, the Clean Air Act 
requires EPA to adopt more protective air quality standards 
that would produce air quality that is safe to breathe. 
Specifically EPA must set the standards at levels sufficient to 
protect the public health with an adequate margin of safety as 
well as protect the public welfare which includes effects on 
property and economic values. The current standards do not meet 
that requirement and therefore need to be strengthened.
    It is important to recognize that EPA's proposed standard 
is not the product of whimsy or executive overreach. EPA's 
proposals are a response to demands placed on it by the Clean 
Air Act itself. That law and the specific duties it imposes on 
the EPA was adopted in 1970 with overwhelming bipartisan 
support and was strengthened in 1990 through amendments 
supported and signed into law by President George H. W. Bush.
    In the 45 years since the Act's adoption, EPA's critics 
have repeatedly argued that EPA must consider the cost of 
controlling pollution under the National Ambient Air Quality 
Standards. The courts have repeatedly and resoundingly rejected 
that claim, most notably, the unanimous Supreme Court opinion 
written by Justice Scalia. The court ruled that the Clean Air 
Act prohibits EPA from considering cost when it adopts these 
standards.
    Now, it is critically important not to misunderstand these 
rulings. They don't mean that compliance costs and economic 
impact are irrelevant to the statute's operation. Instead, the 
courts have recognized that the statute empowers the states to 
take costs into account in designing and implementing plans to 
achieve the national standards by adopting adequate control 
strategies that meet their own economic and social needs. The 
statute therefore accommodates public health concerns and 
economic needs through a process that respects state 
sovereignty and discretion.
    The economic benefits of air pollution controls are 
significant, even if they tend to be overlooked. They provide a 
productivity dividend by reducing work and school days lost to 
illness-related air pollution exposure. EPA estimates that its 
Clean Air Act regulations prevented 13 million lost work days 
in 2010 alone. These regulations also can create new markets 
and opportunities for entrepreneurs as federal and state energy 
efficiency regulations have done. Environmental regulation can 
spur businesses to revolutionize their production processes in 
ways that lead to greater productivity and profitability as 
numerous examples under the statute and other laws have shown.
    I will be happy to answer any questions the committee may 
have.
    [The prepared statement of Mr. Glicksman follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Whitfield. Well, thank you very much, Mr. Glicksman. 
And at this time I would like to recognize Dr. Gregory Diette 
who is the Professor of Medicine at Johns Hopkins University 
School of Medicine, and he is testifying on behalf of the 
American Thoracic Society. Thanks for being with us today, and 
Dr. Diette, you are recognized for 5 minutes.

                 STATEMENT OF GREGORY B. DIETTE

    Dr. Diette. Thank you, Mr. Whitfield, and thank you to the 
other chairman and the ranking members and all the members at 
these important subcommittees. I really appreciate the 
opportunity to talk to you today. As you said, my name is Dr. 
Gregory Diette, and I practice at Johns Hopkins University in 
Baltimore, Maryland. I am a pulmonologist there which means I 
take care of sick people with lung diseases, especially people 
that are very sick with lung diseases. These are people that 
have trouble breathing.
    You have my written testimony in front of you, and I just 
wanted to try to elaborate on a couple of points that I wanted 
to clarify. One is and the first thing is that ozone is bad for 
people with lung disease. That is not news. That is not news to 
anybody on these subcommittees, but it is an irritant that 
bothers the lungs. Multiple research studies in different parts 
of the country, different parts of the world, have shown that 
people with diseases like asthma, COPD, and other lung 
diseases, when they are exposed to ozone, they get sick.
    What sick means is--sometimes it means you might need to 
increase the amount of medicine you are taking. Sometimes it 
means you are going to go to your doctor's office. Sometimes it 
means staying in the hospital overnight, and sometimes it means 
dying from an attack of COPD or from asthma.
    The second point that I want to make is that ozone 
pollution is bad for otherwise healthy people, too. That's 
really important. We use different ways in order to try to 
irritate the lungs to prove if somebody has asthma. Ozone does 
that in normal, healthy people. It is scary.
    Third, it doesn't matter if ozone is from the next city, 
the next county, or from a neighboring state. Ozone is ozone, 
and it bothers the lungs whether or not it started where you 
live or it started somewhere else.
    The fourth point I want to make is about public health, and 
I think public health sometimes gets sort of lost. We talk 
about a lot of numbers, millions of people with this, hundreds 
of thousands with that. I think what is important about public 
health is it is actually a collection of stories from all over 
America about people who have illnesses and suffer from them 
sometimes. What it can mean, for example, is it can mean a mom 
that is in the emergency department with her kid hoping that he 
survives that asthma attack, and in the back of her mind 
wondering, is she going to be able to take off another day from 
work. And that is an important point. She might not be able to 
go to work, to her job, because her son is sick.
    The issue that she will face also is how she pays for the 
care that she gets there. You have to understand what an asthma 
attack is, too. It is terrifying. People say they can't get 
enough air. Some people say they can't breathe. Other people 
say it feels like there is an elephant on my chest. They think 
they are going to die. People feel panic. They can't stop 
coughing. Sometimes they can't walk, and their medications 
sometimes work and sometimes they don't.
    I asked a patient of mine by e-mail if she could help 
describe for these subcommittees what the role is of ozone in 
her particular life, and she is a 29-year-old woman who is 
fully employed, college-educated, and she has lung damage from 
being born prematurely and now has asthma. And she says things 
like I am very sensitive to air quality, specifically areas 
with large amounts of pollution on code red and code orange 
days. She talks about those days that she is unable to work, 
right? She is unable to work. She can't go outside to do her 
normal-life activities. These are her words. She said even 
stepping on the balcony of her condo can cause her to have a 
severe flare-up of her asthma. She can't do simple errands, 
like going to the grocery store. She can't make it sometimes 
from the door to her car without difficulty. She is very 
dependent on her rescue inhaler on those particular days.
    She said that she is very dependent on the forecasts that 
are available for when there is going to be high ozone days 
because she needs to remember to take her inhaler with her, and 
she said unfortunately, sometimes she has to change plans with 
her friends and her family due to the air quality.
    The final point I want to leave you with is that the 
science is strong and compelling. Since 2006 when the Bush 
Administration EPA looked at the ozone standard, the American 
Thoracic Society recommended a more protective standard of 60 
parts per billion. We are confident of our recommendation then. 
We are more confident now. There are additional studies that 
have come out since that time period which have strengthened 
our understanding of the science.
    The EPA is not basing their proposed protective ozone 
standard on 1 study. It is not ten studies. It is literally 
hundreds of studies that have helped to inform this rule. It 
includes multiple scientific methods including animal studies, 
mechanistic studies, human population studies, natural 
experiment studies, and meta-analyses. What these studies show 
is that the current ozone standard is not protective of public 
health and that the EPA must issue a more protective standard.
    Thank you very much for inviting me here, and I appreciate 
any questions you might have.
    [The prepared statement of Dr. Diette follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    Mr. Whitfield. Well, thank you, Dr. Diette. And at this 
time I would like to recognize our next witness, Dr. Louis 
Anthony Cox who is the president of Cox Associates and the 
Chief Science Officer for NextHealth Technologies. Dr. Cox, you 
are recognized for 5 minutes.

              STATEMENT OF LOUIS ANTHONY COX, JR.

    Mr. Cox. Chairman Burgess, Chairman Whitfield, and members 
of the subcommittees, thank you for inviting me to discuss the 
human health aspects of EPA's proposed ozone rule. I am 
testifying on my own behalf today, understanding that well-
informed policy making must consider the likely and foreseeable 
impacts of the proposed rule on human health, as well as on 
economic end points. I have lived in Denver since 1987, so I 
care a lot about air pollution personally. But today I want to 
focus on what science and data tell us about how changes in 
ozone affect public health.
    I have provided the committee members with a detailed CV 
describing my academic, publishing, professional, and 
consulting affiliations and my service as a member of the 
National Academy of Engineering and as clinical professor of 
Vital Statistics and Informatics at the University of Colorado, 
School of Public Health.
    In evaluating whether costly proposed regulations are in 
the public interest, we should ask first, how well will a 
regulation really work? That is, will it actually cause the 
desired benefits that motivate it which we have been hearing 
about? Second, how sure can we be? For how sure we can be, 
EPA's Health Affects Risk Assessment Report for Ozone clearly 
warns that their estimation of health impacts uses inaccurate 
models with significant uncertainties that they have not been 
able to quantify. Unfortunately this leaves policymakers and 
the public uninformed about how likely it is that the proposed 
ozone rule will really cause the substantial public health 
benefits that EPA estimates and how likely it is to instead 
produce other outcomes, such as no public health benefits.
    We can summarize EPA's uncertainty analysis very simply, by 
saying that no one can tell from their published risk 
assessment documents what the true effects of the proposed rule 
on public health would be. Fortunately, despite this important 
gap, it is quite easy to find out the correct answer. For 
decades EPA and the Centers for Disease Control and Prevention 
have kept data on the ozone levels and public health, 
mortality, and morbidity rates at hundreds of locations across 
the United States. It is straightforward to examine what has 
happened to ozone and what has happened to health risks in 
hundreds of counties. It is also easy to apply objective, 
statistical methods for causal analysis to these data to 
determine how, if at all, ozone levels and mortality and 
morbidity rates are causally related.
    Such analyses revealed the following key points: First, as 
reported in hundreds of studies, there are positive, 
statistical associations between ozone levels and mortality and 
morbidity rates in many locations. Both tend to be higher in 
some places and at some times than others. For example, both 
ozone levels and cardiovascular mortality rates used to be 
higher decades ago than they are now.
    EPA interprets such repeated findings of positive 
associations as evidence of causation, but in fact, they are 
only evidence for correlation. Dr. Diette says that ozone 
bothers the lungs, but they are not bothered less at lower 
concentrations.
    Second, mortality and morbidity rates have fallen just the 
same where ozone levels have increased as where they have 
decreased. Both short-run and long-run studies that have 
rigorously examined changes in ozone levels and changes in 
public health risks pray possible causal relation between them 
have not found one. How ozone changes does not help to predict 
or explain how mortality rates will change. This means that the 
statistical association between them is coincidental, not 
causal.
    These facts answer the question that EPA's Health Risk 
Assessment for Ozone left unanswered. The human health benefits 
that EPA and others predict from the proposed ozone rule will 
not materialize. We know this because they have not 
materialized in the past. Reductions in ozone much larger than 
those now being proposed have already occurred without causing 
any detectible improvements in public health. To predict they 
will do so in the future is simply wishful thinking and bad 
statistics based mainly on using uncertain and inaccurate 
models and are confusing historical correlation with future 
causation.
    Current ozone levels are already low enough so the further 
reductions should not be expected to cause improvements in 
public health.
    EPA's conclusions about the causal impacts of ozone 
reductions on public health run against these empirical 
findings, but their conclusions are based on unreliable, 
subjective judgments of selected experts on models that they 
concede are inaccurate and have large but unquantified 
uncertainties and unmistakenly treating correlation as 
causality. None of these methods produces trustworthy 
conclusions.
    In summary, we know from extensive real-world experience 
that EPA's predicted health benefits from the proposed rule are 
only artifacts of inaccurate modeling assumptions. Assuming 
that smaller future reductions in ozone will accomplish 
benefits the previous larger reductions have not is 
unwarranted. There is no need to repeat the costly effort to 
obtain better public health by further reducing ozone levels. 
We already know from abundant historical experience that doing 
so does not work.
    Thank you for your attention.
    [The prepared statement of Mr. Cox follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 . And our next 
witness is Ms. Stacey-Ann Taylor who is the Director for 
Product Stewardship at Henry Company, and thanks for being with 
us, Ms. Taylor. And you are recognized for 5 minutes.

                 STATEMENT OF STACEY-ANN TAYLOR

    Ms. Taylor. Good morning. Thank you Chairman Whitfield, 
Chairman Burgess, Ranking Members Rush and Schakowsky, and 
members of the subcommittees for the invitation to testify 
regarding the EPA's proposed ozone rule and the potential 
impacts on manufacturing.
    My name is Stacey-Ann Taylor, and I am Director of Product 
Stewardship at Henry Company. Henry Company is a privately 
owned building products manufacturer based in El Segundo, 
California, right next to LAX airport. Henry Company has 
manufacturing facilities in 6 states and employs about 450 
people. We manufacture roof coatings, roofing adhesives and 
sealants, driveway sealers, air and vapor barriers, and a 
number of other residential and commercial building products.
    Henry Company is a very active member of the Roof Coatings 
Manufacturers Association, RCMA, and I am also pleased to 
represent RCMA with my testimony as well. RCMA is the national 
trade association representing manufacturers of asphaltic and 
solar reflective coatings and their raw material suppliers.
    Typically, legislative and regulatory discussions on the 
impact of lowering the EPA's NAAQS for ozone focus on a few key 
industries, especially oil and gas production, utilities, and 
motor vehicle manufacturing. However, these discussions rarely 
include an explanation of how lowering the NAAQS for ozone will 
have an impact on everyday consumer and commercial products.
    In November 2014, EPA issued a proposed rule to lower the 
NAAQS for ozone from the current 75 parts per billion to 70 
parts per billion or possibly lower. When the EPA lowers the 
NAAQS for ozone, this requires the states to update their State 
Implementation Plans to try and meet the EPA's new regulatory 
requirements. These State Implementation Plans have to be 
approved by EPA. Understandably, the states will have to 
include a variety of air quality management methods in their 
State Implementation Plans to meet the lower standard. One of 
these air quality management methods is the regulation of 
Volatile Organic Compounds, VOCs, in consumer and commercial 
products.
    VOCs are gases emitted from certain chemicals found in 
consumer and commercial products. VOCs are also emitted from 
natural sources, such as plants and trees. VOCs react with 
nitrogen oxides and sunlight to form ground-level ozone. As we 
all know, breathing in ground-level ozone can result in adverse 
health effects, especially for sensitive populations.
    Therefore, it is appropriate for EPA and the states to 
regulate VOCs. However, VOC regulation of consumer and 
commercial products in certain air quality management districts 
around the country are approaching the point of diminishing 
returns in terms of actually contributing significantly to air 
quality improvement.
    EPA and the states should carefully consider whether 
requiring manufacturers to achieve further drastic reductions 
in VOC content in consumer and commercial products is 
technically feasible at this time and also worth the time and 
resources spent by manufacturers to comply for a low return on 
investment in terms of improved air quality.
    In addition, it should be noted that if manufacturers can't 
find reasonably priced technology to achieve these further VOC 
reductions, there will certainly be fewer consumer and 
commercial products available in the marketplace for purchase. 
Manufacturers will have to restrict non-compliant products from 
sale, and if replacement products can't be manufactured and 
sold at prices the market will bear, then the result will be 
fewer products available for people to purchase.
    In closing, I hope that I have provided a clear explanation 
of how EPA's lowering of the NAAQS for ozone will eventually 
result in further regulation of VOCs in consumer and commercial 
products that may not significantly help air quality management 
districts achieve attainment status and may actually result in 
less product choice in the marketplace. As manufacturers of 
consumer and commercial building products, Henry Company and 
its representative trade association RCMA believe that EPA 
should not be allowed to further lower the NAAQS for ozone 
until the vast majority of the air quality management districts 
across the country have reached attainment status under the 
current level of 75 parts per billion.
    The primary focus of the EPA should be to provide 
additional support to those air quality management districts 
currently in non-attainment status to help them reach 
attainment status under the current level, before making the 
goal of reaching attainment status even more difficult for the 
states to obtain.
    Thank you very much for your time.
    [The prepared statement of Ms. Taylor follows:]
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
        
    Mr. Whitfield. Thank you, Ms. Taylor, and our next witness 
is Mr. Michael Freeman who is the Division President of The 
Americas for WD-40 Company. Thanks for being with us, and you 
are recognized for 5 minutes.

                  STATEMENT OF MICHAEL FREEMAN

    Mr. Freeman. Thank you, Mr. Chairman, ranking members, and 
members of the subcommittees. It is an honor and a privilege to 
be sharing the views of WD-40 Company and its partner trade 
associations, the National Aerosol Association, or the NAA, and 
the Consumer Specialty Products Association, CSPA, with you 
today.
    I join you as the President of the Americas for the WD-40 
Company. We have our global headquarters in San Diego, 
California. Our products are found under the sink, in the 
garage and in the toolboxes of loyal fans in over 176 countries 
around the world. In the United States, WD-40 is in over 80 
percent of U.S.A. households. We are also in over 80 percent of 
U.S. businesses. That makes us appear a lot larger than we 
really are. My dentist was horrified the other day when I told 
him in the USA more people use WD-40 every day than use dental 
floss. He didn't like that, but it is a true story and really, 
really testifies to our brand power and uses for all of our 
brands: WD-40, Lava, 3-IN-ONE, Spot Shot, and the other brands. 
Which brings me to the national ozone standard.
    We know from experience that lowering the national ozone 
standard has resulted in lower VOC state regulations that drive 
us to reformulate many of our products, and we are not alone. 
This happens with other consumer products also.
    What are consumer products? Well, if you go look underneath 
your kitchen sink, your bathroom sink, you go to your pantry, 
your laundry room, you can go out to the garage. All those 
products there that make your life better, that is us. Now, it 
makes us a bigger industry, and that makes us also a target for 
VOC emissions, even though we are one of the smallest sources 
of VOC emissions nationally.
    So in our opinion, reducing the standard right now can have 
a serious impact on consumer products. Household products like 
WD-40 could become much less effective and/or much more 
expensive for a consumer to buy, and that has been our 
experience with past regulations.
    Reducing the standard now could also create a confusing 
patchwork of compliance regulations across and within states. 
And that has been our experience now, too.
    The current regulation is not being implemented anywhere 
close to the same way across all 50 states, and even in the 
great State of California, which has over 35 air districts, we 
now have air districts doing something different than the State 
of California. So you can imagine how complex and confusing 
this is for everybody involved.
    Reducing the standard now would also add significant costs 
that can adversely impact the entire aerosol industry and 
others because it is not just your R&D product development 
cost, it is also the marketing cost. You are constantly 
changing labels where you can put label claims on for your 
product, changing labels out due to the evolving nature of the 
regulations. It also moves into your supply chain.
    In California there are certain plastic bottles that we 
like to use of a certain size, and if we use them, we have to 
make sure they have 25 percent recycled content. So you have a 
compounding of different regulations, and unfortunately, I 
don't have the impression that all the regulators talk to each 
other. And so the combined impact on business is rather 
amazing.
    All these costs can become embedded into our business going 
forward. Sometimes we can pass them on, sometimes we can't. But 
the tip of the spear is the R&D, and we know from experience 
that it takes years of diligent research and millions of 
dollars for the WD-40 company to develop products that meet the 
statutory regulations.
    Let me give you an example. WD-40 company has lowered the 
VOC content of its flagship brand, WD-40, from 65 percent VOC 
to 50 percent VOC to the current 25 percent VOC standard in 
California in the last 15 years. By the end of 2018, California 
presently requires that we get the VOC content down to 10 
percent. Now, we have been working on this for years, and we 
have not yet discovered the way to do it that is 
technologically or commercially feasible. But we will keep 
working on it. We still have time. And all this is being done 
underneath the current regulation. What do you think happens if 
you dogpile another regulation on top of that as far as 
confusion and complexity?
    The NAA, the CSPA, the WD-40 Company, and many other 
consumer product companies have a long and successful history 
of working with the California Air Resource Board, the Ozone 
Transport Commission, the EPA, and several individual air 
districts.
    So our recommendations are essentially this. First off, can 
we celebrate the success that we have had? We have cleaned a 
lot of air over the last several years working together. I grew 
up in smoggy Southern California in the '50s, '60s, and '70s, 
and at the end of a lot of days I couldn't do that without 
having a smoker's hack. And I wasn't smoking. I was just doing 
water polo and swimming. So we would like to celebrate. We 
would like to make sure that many of the regulations that have 
been developed have not yet been fully implemented with known 
results. And we just ask, can we finish one job before we start 
with another? I would rather go into a regulation with actual 
results and facts and reality than modeling.
    Our final recommendation is for Congress to keep the 
current standard unchanged at 75 parts per billion until states 
have been able to fully implement that standard and learn from 
those regulations and results so that we can all move forward 
in the fact-based, more aligned and successful way to achieve 
our common clean air goals. Thank you.
    [The prepared statement of Mr. Freeman follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
  
    Mr. Whitfield. Well, thank you, Mr. Freeman, and thank all 
of you for your testimony and for taking time to give us your 
insights and thoughts on this important topic. At this time I 
recognize myself for 5 minutes of questions.
    Mr. Freeman, you touched on trying to come in compliance 
with these regulations, and there has been a litany of 
regulations, I mean, more so in this administration than at any 
other administration in recent memory. And you mentioned this 
also, Mr. Eisenberg, about the fact that unknown technology or 
controls--to me, unknown controls means that it is simply not 
there yet to meet the standard. Is that what your understanding 
is, Mr. Freeman?
    Mr. Freeman. Yes.
    Mr. Whitfield. Now, some people would say and many people 
make the argument that, well, we are so innovative in America 
that we come up with new solutions, and I think that is true. 
And you have indicated yourself that you have gone from 65 down 
to 25 percent of VOCs, and California by 2018 wants you to go 
down to 10. So more than likely you will be able to do that I 
assume, right?
    Mr. Freeman. Right now we don't really know. Life is full 
of ambiguity, whether it is personal life or business. But 
because we work together well with the California Air Resource 
Board, that 2018 date was actually supposed to be in effect at 
the end of this year, and we were able to go back to them and 
say do you know we have been working hard on this? And they 
actually delayed it for 3 years. So we have 3 more years. But 
that is an example of people working together.
    Mr. Whitfield. Well, another frustrating thing about this 
is EPA came up with this standard in 2008 and only a few months 
ago did they provide the implementing guidelines to the states. 
And so now the states are just getting this, and they are 
already moving onto a new standard.
    Now, we heard a lot of comments about this is good for the 
economy, and there is no question that since the first Clean 
Air Act that was adopted in '70 and the major changes in '90, 
the economy has grown. But I don't think we can just throw 
under the rug this report that came out in April from the 
Global Market Institute of Goldman Sachs that point-blank says, 
in small businesses 500 employees and less, for the first time 
ever after an economic crisis, as we try to come out of there, 
the number of small businesses has decreased by over 600,000, 
600,000 less.
    So if you are a small businessman with this cumulative 
impact--and they say that the cause is banking regulations 
because capital is not available and costs are higher, and then 
other regulations, like healthcare and so forth, that 
cumulative impact has been responsible for 6 million fewer 
jobs.
    And so I think it is one thing to say, well, this is good 
for the economy, but for the first time ever, that is not 
proving to be the case. And so a lot of the arguments being 
made today, we all recognize the great success of the Clean Air 
Act. But at some point, you do get to diminishing returns, 
particularly when ozone is affected by what is going on in 
China, India, elsewhere. And I think you folks from 
California--I guess you are from California, Ms. Taylor. Los 
Angeles has never been in compliance. San Joaquin Valley has 
never been in compliance, and there are other parts of the 
country that have never been in compliance, and they are not 
going to be in compliance now, either.
    So let me just ask you, Mr. Eisenberg, when Ms. McCabe 
comes here, every time she says our rules promote economic 
growth. Do you agree with that?
    Mr. Eisenberg. Well, in the case of ozone, we actually did 
address that in the study. The 1.4 million jobs number and the 
$140 billion that the study has concluded, that is actually net 
jobs. So they took into account the comment regulations create 
jobs. They create, people and so on, pollution control 
technologies and things like that. The study actually has that 
in it, and we still come out as negative as it does at 1.4 
million jobs lost.
    So, you know, yes, they do, but they are so far outweighed 
with this regulation from all of the jobs that would be lost 
overall.
    Mr. Whitfield. And you know, this whole issue raises 
another question. The Clean Air Act has been sort of 
sacrosanct, and rightfully so, because healthcare is vitally 
important, and we have made great strides because of what is 
going on with our physicians and our healthcare delivery 
system.
    But the truth of the matter is EPA cannot look at costs 
when setting the standard. States can look at costs when 
implementing under the State Implementation Plans, but maybe we 
should consider cost particularly when you have 6 million fewer 
jobs in small businesses. Isn't that a relevant factor? What is 
the impact on the healthcare of those families who may not have 
health insurance? Is that a valid point to consider?
    Mr. Eisenberg. We would certainly agree with that. We would 
add that a couple of weeks ago the GAO put out a report that 
EPA actually does have a duty to at least look at the cost 
through CASAC, its panel, and CASAC has never done it because 
EPA has never asked them to.
    So while it is legally correct that they are not to 
consider cost while considering the actual number, they should 
be informed and CASAC should be informed, and they didn't do it 
this time. We think they should go back and do it again.
    Mr. Whitfield. My time is expired. At this time, I 
recognize the gentleman from Illinois, Mr. Rush, for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman. Mr. Glicksman, 
currently the Clean Air Act requires the EPA to issue standards 
based solely on consideration of the public health, and these 
rules must ``accurately reflect the latest scientific 
technology.'' What would be the impact on public health if, as 
the chairman has suggested, that the majority party would 
rewrite the Clean Air Act to make cost to industry rather than 
the benefits of public health the primary driver of EPA rules? 
And Dr. Diette, you can chime in on that. I want to ask Mr. 
Glicksman first. What would be the impact, in your opinion?
    Mr. Glicksman. Yes. The statute has been in effect for 45 
years, and throughout that time cost has been a factor that has 
been irrelevant to the establishment of the national standards, 
as I indicated in my statement. Cost is highly relevant in the 
implementation phase, and it appears to me at least in my study 
of the statute that that has provided a good balance of 
attempts to achieve public health protection with cognizance of 
the economic impact of regulation.
    I think if EPA were required to consider cost at the 
standard promulgation stage, you would inevitably find weaker 
protection of the public health because cost considerations 
would, I think in many cases, wind up trumping public health 
considerations.
    Mr. Rush. Dr. Diette?
    Dr. Diette. Thank you. I think it is a great point and a 
great question to ask. I think one of the issues here is to 
consider, since there is so much focus on employment and jobs 
and so forth which I think is highly appropriate, that we need 
a well-educated healthy workforce in order to go to work, 
right? And so one of the benefits, and it doesn't stop at 70 or 
65 parts per billion, is more work days for people who actually 
breathe in ozone and more children going to school, right? And 
so there is evidence that children who miss many school days 
because of asthma score worse on standardized tests.
    So I just want to point out if the entire focus, which it 
is not, was on the workforce, there is a really good argument 
to be made that you need to keep your workforce healthy and 
well-educated, and you are fighting against that when people 
are in the emergency department or in the hospital or otherwise 
not able to go to work or school.
    Mr. Rush. Thank you. Professor Glicksman, for the past 2 
years we have constantly been debating the impact that 
regulations have on employment, and we have continuously heard 
from industry groups that any and all regulation will stifle 
economic growth and lead to job losses. However, in your 
testimony, you cite an ETI study that reported that few jobs 
are lost because of regulation. In fact, the EPA study you 
cited notes that extreme weather events have caused more 
extended mass layoffs than regulations. Additionally, the 
report states that the number of workers who lost their jobs 
because of government regulation ``pales in comparison to any 
accounting of the jobs lost in this period due to regulatory 
failures that contributed to the economy's financial crisis.''
    Does federal regulation always lead to economic decline and 
job loss or is it possible to both regulate our air and water 
and also grow our economy and provide jobs?
    Mr. Glicksman. Environmental regulation does not inevitably 
lead to job losses, and it is indeed possible to accommodate 
both public health and economic growth concerns.
    There have been many examples of situations in which the 
regulate community has predicted massive job losses and other 
adverse economic effects as a result of proposed environmental 
regulations. And rarely if ever have those predictions come 
true.
    One good example is the adoption in 1990 of the Clean Air 
Act provisions that phased out the use of ozone-depleting 
chemicals. At the time that the phase-out was first proposed, 
the manufacturers of chlorofluorocarbons predicted that there 
were no available substitutes, there could not be available 
substitutes in the foreseeable future, and that even if 
available substitutes became feasible, they would cost many 
times the cost of the products being replaced. Well, none of 
those predictions panned out. It turned out that when the 
handwriting on the wall became clear to companies like DuPont, 
they engaged in an intense effort to develop new technologies 
that would allow them to manufacture products that serve the 
same functions as CFC-containing products did, and not only 
were they able to make that shift much quicker than the statute 
required, they did so at a much lower cost than had been 
predicted, even by EPA. And finally, companies like DuPont 
found themselves as market leaders. They had developed these 
substitutes far earlier than any of the competing companies in 
countries abroad. They were also subject to Montreal Protocol 
phase-out.
    So the U.S. industry had a competitive advantage over 
foreign producers because of their response to the phase-out 
adopted in 1990.
    Mr. Rush. Thank you.
    Mr. Whitfield. The gentleman's time has expired. At this 
time I will recognize the gentleman from Texas, Dr. Burgess, 
for 5 minutes.
    Mr. Burgess. And thank you, Mr. Chairman. Ms. Wesley, let 
me ask you something. Mr. Freeman actually touched on it, but I 
rather suspect the Greater Baton Rouge Area is very similar to 
the area that I represent just north of the DFW airport. And a 
recent report showed in our area the 8-hour ozone levels have 
improved 21 percent in the last 15 years during which time our 
population has increased by 29 percent. I think that speaks to 
some success, in our area, I suspect your area as well. And in 
controlling this issue at--had nothing been done 15 years ago, 
had no activity been undertaken to try to improve things with a 
29 percent increase in population, I don't know. I suspect we 
would be in deep trouble in the North Texas area, and yet, we 
are not.
    Most of the ozone in our area actually does come from 
mobile sources, and I will just tell you that mobile sources 
have not diminished. Drive on our roads in North Texas, and 
that becomes painfully obvious. Mobile sources continue to be 
one of the main drivers, no pun intended, of air quality 
issues. But I wonder if you would speak to that in the Baton 
Rouge Area?
    Ms. Wesley. Certainly. We have done a lot of work over the 
last several years with the Baton Rouge Clean Air Coalition, 
working with other partners to really get ourselves up to the 
75 parts-per-billion standard. I am looking a little bit at the 
Brookings Institute study and talking specifically about Texas. 
If you look at that study in terms of the top-performing 
economies, Austin, Houston, San Antonio, Dallas, and others, 
they are similarly faced with this ozone attainment issue.
    And so for us, it is about looking at our partners, 
learning how we can do better in terms of reaching that 
standard and not shooting that standard down the road. Right 
now we are at 75 parts per billion. We know that the EPA is 
shifting that standard, you know, on its own will. And so why, 
one, are we shifting the standard when we are still trying to 
get there, not only for the Baton Rouge area but certainly 
areas across our state? And so we are working toward that 
standard. We are working with partners across states who work 
toward that standard. But in the meantime, we are certainly 
opposed to what is being proposed right now by the EPA because 
of the costs associated with it.
    Mr. Burgess. Thank you. Dr. Diette and Dr. Cox, I want to 
ask each of you a question, and it is probably not fair. And as 
a consequence, I am prepared to also offer the question in 
writing and would look forward to your responses on this.
    But Dr. Diette, you say in your testimony, in sum, there is 
accumulating evidence that ozone pollution at levels permitted 
by the current standard is damaging to human lungs and 
contributes to disease. And then Dr. Cox, in your statements, 
you say the EPA's conclusions rely on unreliably subjective 
judgments of selected experts on models that they concede are 
inaccurate and have large but unquantified uncertainties and on 
mistakenly treating association correlation as causality.
    So we seem to have a scientific standoff, if you will, as 
to these two competing hypotheses. And let me let each of you 
just take a few minutes and talk about that. But I actually 
would ask you to respond to that discrepancy in written form as 
well. Dr. Diette, you are first.
    Dr. Diette. Sure. Thank you for the question. I think it is 
a great one, right? I would first of all like to point out that 
just because there are 2 of us here representing different 
points of view, it doesn't mean that there is a 50/50 balance. 
I think the scientific community is strongly behind the 
evidence being strongly supportive of lowering the standard. So 
I don't think it is a 50/50 issue.
    What I would say is that the issue about associations I 
think can be overblown. There are association studies, but when 
you look at how people put together evidence to decide that 
there is causality, you can go back to Sir Bradford Hill. There 
are many criteria that fit together for assigning causality. 
Part of it includes the strength of association or not, but 
other things such as experimentation which has been available 
here----
    Mr. Burgess. Let me stop you there to give Dr. Cox a chance 
to respond.
    Dr. Diette. Thank you.
    Mr. Cox. I think we are on substantially the same page 
which is that many people use many criteria to make decisions 
about causality. But there are better, more objective methods 
that don't require subjective decisions. They actually get at 
causality from the data. Those methods unambiguously show that 
there is no causal relation detected between changes in ozone 
and in changes in public health. Subjective decisions do 
overwhelmingly support the converse proposition.
    Mr. Burgess. Again, I would actually look forward to each 
of you expounding upon that a little bit in written form, and I 
will submit the question in writing. But Mr. Chairman, I 
learned something this morning from Dr. Diette. I had no 
earthly idea that ozone was used as a provocative test for 
asthma. It seems a little dicey to me as an asthma patient and 
as a physician.
    Dr. Diette. I either misspoke or you misheard. I am not 
sure which, but my point was we use other agents as a 
provocative test, not ozone. But what is so powerful a message 
to me is where we have to try to provoke the airways in an 
asthmatic with other chemicals, ozone does it in a normal 
person. So you don't even have to be asthmatic to see an 
asthma-like response in a normal person. That is powerful 
stuff.
    Mr. Burgess. If I can interrupt you there just to briefly 
interject that I Googled that, and indeed, some people have 
used ozone as a provocative test for asthma. But it is actually 
in the parts-per-million range, not the parts-per-billion 
range. So there is a significant quantitative difference. Mr. 
Chairman, thank you. I will yield back.
    Mr. Whitfield. The gentleman yields back. At this time I 
would like to recognize the gentlelady from Illinois, Ms. 
Schakowsky for 5 minutes.
    Ms. Schakowsky. So this discussion about whether ozone is 
involved at all in public health is interesting. I am just 
wondering if either one of you want to go further in talking 
about why this regulation is so important and the costs of 
health, et cetera.
    Dr. Diette. Sure. It is a great question, right? So why is 
it important in order to think about a lower threshold, right? 
And a lower threshold is meant to protect human health. And the 
issue is that this is a potent, oxidizing agent, right? There 
is no question about it. This isn't something that is in 
debate, right? We know that it bothers the airways of people, 
whether or not they have a lung disease. But when you have a 
lung disease, you are especially bothered by it. So what you 
are trying to prevent is the catastrophic chain of events which 
leads to somebody being in the emergency department or in the 
hospital, not able to work, not able to go to school, those 
sorts of things, and in the worst case, dying.
    The evidence base is expanded so that we have evidence 
beyond just respiratory diseases, and there is emerging 
evidence about whether there are neurologic conditions that may 
be attributable to ozone exposure. There is also other 
evidence, too, that goes beyond just short-term effects but 
looking at long-term effects, and that is starting to emerge as 
well.
    So there are a lot of reasons to worry about it from a 
human health standpoint. If you are a human, you should care 
about it.
    Ms. Schakowsky. Thank you. I wanted to follow up on the 
track that my colleague, Mr. Rush, was going down in terms of 
cost because it seems that in general, those who focus on costs 
are not talking about the costs from exposure to unsafe air, 
they are talking about the costs to polluters of actually 
cleaning up the air.
    So I would like to ask our witnesses about the real costs 
associated with this rule, the costs of health impacts 
associated with unsafe air that affect the lives of millions of 
Americans.
    So Dr. Diette, during the current 75 parts per billion 
ozone standard, have we seen those adverse effects on public 
health?
    Dr. Diette. Yes, that is one of the points I think, right? 
I mean, at least in my written testimony especially I was 
trying to highlight the fact that since 2008 when the standard 
was considered to be changed then that the studies that have 
been done since then are done in an era when the 75 parts-per-
billion standard exists.
    So we continue to see adverse effects in the current era, 
even after the implementation of the 75 parts per billion. And 
the range goes down quite low. So 60 is comfortably within the 
range of where we see adverse health effects.
    Ms. Schakowsky. So you are saying that 60 even is----
    Dr. Diette. Sixty parts per billion, yes.
    Ms. Schakowsky. Yes. Dr. Glicksman, would you like to add 
to that?
    Mr. Glicksman. I just want to actually respond to the last 
two questions, in particular why it is important to adopt this 
standard. The Clean Air Act is a precautionary statute, as the 
courts have interpreted it. It is a preventive statute. In 
other words, the statute demands that EPA err on the side of 
over-protection of the public health. Congress was aware when 
it adopted the statute that there inevitably will always be 
scientific uncertainty about the causes and effects of public 
health consequences, and it mandated that EPA resolve doubts in 
favor of protection. And I will give you a good example of why 
it did that.
    In 1978, EPA adopted National Ambient Air Quality Standards 
for lead. Over the years, it has amended that standard, and 
science now tells us that the standard that EPA thought was 
safe in 1978 was 10 times too high. Many think that even the 
current standard is not sufficiently protective.
    So history shows us that over time science is able to 
detect adverse effects in public health, that it was not able 
to detect previously and that the statute mandates EPAs 
overprotection in order to mitigate that tendency.
    Ms. Schakowsky. Going back to the issue of cost for just 
the minute that I have, you have already talked about the lost 
school days, et cetera, but I am wondering--and if you have 
already answered this, I really apologize for having been gone. 
There are multiple hearings going on at the same time.
    How many emergency room visits, if we have any calculation 
on that, are expected to be avoided with the strengthened ozone 
standard? Does anybody have that kind of data?
    Dr. Diette. Yes. Thank you. I mean, there are different 
estimates of it. I think that one of the papers that I have 
sort of thought was very valuable was there is one by Jesse 
Berman, which is in Environmental Health Perspectives, and it 
talks about what the estimates would be if we achieved the 
current 75 parts per billion standard and then also what would 
happen at lower thresholds including 70 and 60 and so forth. 
And so when you mentioned school, for example, at 70 parts per 
billion, the estimate is approximately 2 million school days 
saved. If it is at 60 parts per billion, it would be closer to 
4 million as well.
    And so there is an incremental advantage at each one of 
those thresholds for the types of things that you are talking 
about.
    Ms. Schakowsky. Thank you and I yield back.
    Mr. Whitfield. The gentlelady yields back. At this time I 
recognize the gentleman from Texas, Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the chair. Welcome to all seven 
witnesses. My first question is for you, Ms. Wesley. Last week 
EPA's ozone guru, Ms. McCabe, told me that many Americans will 
meet this rule by 2025. In essence she says our concerns are 
much ado about nothing. EPA has made some big assumptions to 
get America to that point in a decade.
    For example, they say that technology that hasn't been 
identified will show up and make meeting these rules 
affordable. They also say that their 111(d) carbon rule will 
come off without a hitch and cut some pollution, too.
    People back home have their doubts. I share them. But let's 
imagine they are right for a moment. Even if some counties 
can't comply in a decade, won't there be dramatic changes and 
negative impacts in every sector of the American economy from 
day one?
    Ms. Wesley. Well, I think the biggest concern on behalf of 
the Baton Rouge Area Chamber and other economic development 
organizations across the state is if you change that standard 
today, we are then placed into non-attainment status. And so 
what does that mean, as we have an economic development 
toolkit. We look at rules and regulations and laws, and we are 
trying to attract jobs and companies to Baton Rouge and to the 
State of Louisiana.
    And so if we are placed in non-attainment status, that 
would be detrimental harm done not only to BRAC but other areas 
across our State. So even though looking toward 2015 that may 
be one solution, the biggest concern for us is right now and 
what that impact means if that standard is changed today.
    Mr. Olson. Yes, ma'am. Mr. Eisenberg, I was about to shoot 
to you, my friend. Will impacts happen automatically, day one, 
if this new rule goes into effect?
    Mr. Eisenberg. They absolutely will. If this thing goes 
live on October 1 and October 1 you have to get a new--if you 
are in the middle of a permitting process for your facility and 
you are not at the very, very, very, very, very end, then yes, 
you have got to comply with the new standard. And remember what 
our poll said, over half of our members believe that it is very 
unlikely that they are going move forward with a project if 
they get stuck in non-attainment.
    Mr. Olson. Another question, Mr. Eisenberg. As we proved at 
last week's hearing with Ms. McCabe, we can never fully 
eliminate ozone in America. God gave us natural ozone. Half or 
more of the ozone in America is beyond our control. That means 
that at a certain point we can't go lower. This is why so much 
of this compliance technology EPA expects to make this rule 
work is unknown. And yet EPA can't even consider whether these 
rules are achievable.
    My question is, do you think this is sound law, that EPA 
doesn't even consider whether its rules are achievable?
    Mr. Eisenberg. We absolutely do not. It is actually written 
in our policy statements that our members put in place every 4 
years. We believe EPA should be considering costs in this 
process and especially feasibility given that that is such a 
big challenge here. It is a big reason why we support your bill 
because it would actually inject cost and feasibility into this 
decision-making process.
    Mr. Olson. A balance between health and actual costs. It is 
bipartisan, bicameral, myself, Mr. Latta, Mr. Cuellar on this 
side of the Hill, and Mr. Thune and Mr. Manchin on the other 
side of the Hill support this bill. So thank you for the little 
plug there, my friend.
    My next question is for Mr. Freeman and WD-40 and Ms. 
Taylor from the Henry Company. Driven by the Port of Houston, 
my district is in the middle of a manufacturing petrochemical 
boom. Many people at home are worried about what this rule 
would do, whether it can hurt their jobs along the Gulf Coast. 
But it seems clear to me that the impact will hit average 
consumers even far away from the Port of Houston. Mr. Freeman, 
WD-40 is a staple of American life. I have it in my garage, my 
Jeep parked down in the garage here. I am going to have my 
daughter take it to school, college next year. My question is, 
is it fair to say that these products that every American 
family has to make their home a home, how would that be 
impacted by these new rules? Will my grandkids have WD-40 like 
I have had, like I want my kid to have? What do you think?
    Mr. Freeman. Well, I would say based on our experience 
already with the existing regulations and the state regulations 
that come out of that, that we have had to reformulate WD-40. 
Now, we have kept the secret juice, the concentrate, the same, 
but the solvents that we have to mix into it which do affect 
the formula and also could affect performance and also can 
affect cost, with this 2018 standard right now, my honest 
answer would be to you I don't know what WD-40 your grandkids 
would have because we have to clear that hurdle first.
    And so we are dealing with that ambiguity and trying to get 
there with a lot of great hard work, and I think we are not 
alone in that. I think a lot of consumer product companies are 
concerned that maybe we are at that point in diminishing return 
at least for consumer product goods which is one of the things 
we want to look at. And then the other part of it is we are 
still working underneath the current standard and trying to 
make sense out of that.
    Mr. Olson. Let's not move the goal posts before you achieve 
those current standards. I yield back.
    Mr. Whitfield. At this time I recognize the gentleman from 
New Jersey, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. During our hearing 
last week we heard some of my colleagues argue that EPA's 
proposed ozone standard will hurt the economy and that 
Americans have to choose between clean air and economic growth. 
But history tells us that reducing pollution can benefit the 
economy as well as human health and the environment.
    Since its enactment in 1970, the Clean Air Act provides a 
perfect example of how we can make steady progress in cleaning 
up the air while growing the economy. In fact, over the past 45 
years, we have been able to cut air pollution by 70 percent 
while our GDP has tripled.
    So I am going to ask Mr. Glicksman some questions. What 
does the history of the Clean Air Act tell us about the 
relationship between environmental health and safety 
regulations and a strong economy?
    Mr. Glicksman. I think the history tells us it is possible 
to achieve environmental protection goals without sacrificing 
economic growth and productivity and that the major statutes, 
like the Clean Air Act, the Clean Water Act, Resource 
Conservation Recovery Act demonstrate consistently that 
American businesses are innovative enough and creative enough 
to figure out ways to comply in a cost-effective manner that 
achieve the public health goals of those statutes without 
resulting in adverse effects on economic growth.
    Mr. Pallone. But Mr. Glicksman, yet almost every time the 
EPA proposes a significant new requirement, we hear a litany of 
arguments for why it can't be done. These arguments rely on 
exaggerated claims about implementation cost, job losses, 
minimal health benefits. But we have heard all of these 
doomsday claims before, and throughout the history of the Clean 
Air Act, industry has made claims that cleaning up air 
pollution would impose huge costs and harm our economy. Over 
and over again these claims have turned out to be simply wrong.
    One of the exaggerated claims being circulated about the 
new ozone rule is that estimating the costs would be $140 
billion annually, making it the most expensive rule-making in 
history. However, as we heard last week, EPA's cost estimate 
approved by OMB was much lower. So again, my question. EPA 
estimates that implementation would cost approximately $3.9 
billion for a 70 parts-per-million standard and $15 billion for 
a 65 parts-per-million standard. Those numbers are a far cry 
from the $140 billion. So based on your experience with the 
environmental regulations, does the $140 billion price tag seem 
reasonable to you?
    Mr. Glicksman. I am skeptical of the $140 billion price 
tag. There was a similar apocalyptic prediction made when 
Congress was considering adopting the acid rain control 
provisions of the 1990 amendments. National Association of 
Manufacturers at that time predicted serious and lasting damage 
to the economy as a result of the acid rain provisions that 
would make the United States a second-class industrial power by 
the year 2000. Obviously that hasn't happened. What instead 
happened was that the cost per ton of controlling 
SO<INF>2</INF> was about a tenth of the amount that the 
industry predicted at the time those controls were being 
considered.
    Mr. Pallone. So what is going on here? How have the 
opponents of the ozone rule landed on such a large estimate? 
You venture a guess?
    Mr. Glicksman. I am not an economist. I can't parse the 
numbers in any knowledgeable way, but it is clear in the 
interest of industry to over-predict cost so that it will wind 
up with less protective regulations that are less costly to 
comply with.
    Mr. Pallone. Well, I thank you. No matter how high the cost 
estimate may be, in my opinion there is no reason to oppose the 
new ozone rule.
    I might have time for one more question. Dr. Diette, the 
Clean Air Act requires the ozone standard to be based solely on 
consideration of public health establishing the level of 
pollution that is safe to breathe. Why is it so important to 
separate considerations of cost from setting the standard?
    Dr. Diette. Well, there are many reasons. I didn't write 
the law, right? But I think it has worked out pretty well since 
1970 that it has provided us with very clean air compared to 
some of the countries that I have visited around the world 
which have horrible air quality. And I think the reason to do 
that is because the public health is good for people, right? 
People have a right to breathe clean air. They have a right to 
not become sick by the air that they breathe, and I think that 
we have a more productive and a more functional population when 
people are not sick and they are not running to the emergency 
department. So I think that is the reason to do it.
    The other is that there is a cost-shifting thing here, 
right? I haven't heard a lot of talk about the people who 
inhaled the ozone and missed work. I have only heard about the 
people that produced the ozone and could theoretically miss 
work. So there is an imbalance there in terms of the thinking I 
think.
    Mr. Pallone. I appreciate that. I will just say again that, 
since the beginning of the Clean Air Act, polluters have cried 
wolf every time EPA has passed a new rule to protect public 
health, and the truth is we can have a strong economy while 
cutting pollution and cleaning the air. Thank you, Mr. 
Chairman.
    Mr. Whitfield. At this time I recognize the gentleman from 
New Jersey, Mr. Lance, for 5 minutes.
    Mr. Lance. Thank you very much, Mr. Chairman. I certainly 
understand the position of all of the distinguished members of 
the panel, and of course, from my perspective, this is part of 
the larger debate on the state of the American economy, the 
better health of the Nation. It could even tangentially affect 
the debate we are having in Congress at the moment regarding 
trade.
    To Professor Glicksman, does the Clean Air Act require the 
establishment of the Clean Air Science Advisory Committee?
    Mr. Glicksman. The statute created the Clean Air Act 
Scientific Advisory Committee, and it mandates that EPA consult 
with the committee prior to adoption or revision of national 
standards.
    Mr. Lance. And that is a committee whose members are 
appointed by the EPA or----
    Mr. Glicksman. Yes.
    Mr. Lance [continuing]. By Congress or both?
    Mr. Glicksman. EPA.
    Mr. Lance. By EPA? In your written testimony you state 
that, ``Scientists have known for a long time that the current 
national standard for ozone of 75 parts per billion set in 2008 
is far too weak.'' And then I believe you go onto recommend the 
60 parts per billion. Is that accurate, Professor? And then a 
little less than a year ago, in November, the EPA announced it 
was proposing to revise the standard to within 65 to 70 parts 
per billion. Am I reading that testimony accurately?
    Mr. Glicksman. Yes, that is correct.
    Mr. Lance. And you believe that that revision is ``much 
weaker and appears to be inconsistent with the clear statutory 
language adopted by Congress and interpreted by the Supreme 
Court decision.''
    So from your perspective, would 65 to 70 be illegal?
    Mr. Glicksman. I think it would be an improvement over 75, 
but I don't think----
    Mr. Lance. Yes. Yes, I can count.
    Mr. Glicksman. I don't think it would fully comply with the 
mandate to protect the public health with an adequate margin of 
safety.
    Mr. Lance. And would it be illegal?
    Mr. Glicksman. If not supported by substantial scientific 
evidence it would be arbitrative of the EPA to set the standard 
between 65 and 70.
    Mr. Lance. And would there be a legal remedy for those who 
thought it illegal?
    Mr. Glicksman. Regulations issued by EPA are routinely 
challenged in the courts, in the Courts of Appeals, and the 
Courts of Appeals have the authority to invalidate and remand 
or send back to the agency regulations that don't comply with 
the statute.
    Mr. Lance. And has that occurred regarding ozone?
    Mr. Glicksman. It has occurred in the past regarding ozone.
    Mr. Lance. And the standard has had to be changed as a 
result of that?
    Mr. Glicksman. Yes.
    Mr. Lance. And therefore there would likely be a suit if 
the EPA were to decide this should be 70 or 65 or somewhere----
    Mr. Glicksman. My experience is that there is going to be a 
lawsuit no matter where EPA sets the standard. It is going to 
be challenged by those who think it is overly protective and 
those who think it doesn't go far enough.
    Mr. Lance. Mr. Eisenberg, your opinion on what I have just 
asked.
    Mr. Eisenberg. So first of all, there is a certain irony to 
the folks that are pushing for a standard of 60 are the same 
ones that say that we should only be considering science. And 
60 is something that EPA dismissed on science grounds. I mean, 
they said the science doesn't support 60. So I always find that 
a little odd.
    That being said, so the current standard, 75, was 
challenged, and as Professor Glicksman says, by both sides. And 
the court upheld that standard.
    Mr. Lance. Yes, that is my understanding. The court has 
upheld the 75 standard. And then Mr. Eisenberg, I have an 
industry in my district that manufactures critical water 
infrastructure components. This is in Phillipsburg in Warren 
County, and I believe that this could be very damaging to that 
for the reasons you have suggested. Mr. Eisenberg, could you 
comment on the cost of non-existing pollution control methods 
and how that adds to this debate?
    Mr. Eisenberg. Sure, and the term, EPA's term, is actually 
unknown controls. I mean, non-existing--they basically just 
haven't told us what they are. We don't know if they exist or 
not. We are pretty sure they don't exist because they didn't 
tell us. But they call them unknown controls. That is sort of 
their term of art.
    And modeling the unknown is the chief difference between 
our two studies, to answer the question from before. That is 
kind of the issue here. What do you consider the unknown? And 
we took an evidence-based approach. EPA just kind of 
arbitrarily picked a number and assigned a flat line. That is 
about the same cost as a lot of the known controls. So we think 
it is a lot steeper. We hope we invent a better mousetrap, but 
if we don't you got to start shutting down, and that gets 
expensive.
    Mr. Lance. Thank you. My time has expired. I respect all 
the members of the panel. I think this is a very challenging 
and difficult situation, but we should move forward for the 
economy of the Nation and the better health of the Nation.
    Mr. Whitfield. At this time I recognize the gentleman from 
Kentucky, Mr. Yarmuth, for 5 minutes.
    Mr. Yarmuth. Thank you. Thank you very much, Mr. Chairman. 
Thanks to all the witnesses. Mr. Cox, I listened carefully to 
your testimony. I want to be very clear. It is my understanding 
that you said that there is no evidence that reducing ozone has 
resulted in any public health benefit. Is that correct?
    Mr. Cox. Yes, or to be very precise, studies that have 
looked objectively at causality have failed to find evidence of 
a causal impact of changes on ozone on changes in public 
health.
    Mr. Yarmuth. Well, I represent Louisville, Kentucky. We are 
a non-attainment community making progress. We have an area of 
town called rubber town that has I think 32 chemical companies 
operating in it. Historically we have had tracking. You can see 
the cases of asthma and other respiratory ailments where they 
have been admitted from the hospital, where they come from. 
There is no doubt that there has been a disproportionate amount 
of those cases surrounding rubber town, and as we have made 
progress in ozone, those cases have gone down.
    Now, obviously they haven't done pathological studies I 
think or analyses of that. But Dr. Diette, would you like to 
respond to that because I think that is the fundamental 
question we have to deal with. If there is no benefit to 
reducing ozone, no health benefit to reducing ozone, then 
obviously, none of these rules would make sense. But in terms 
of your clinical experience and knowledge, how would you 
respond to that?
    Dr. Diette. It is a great question, and I think but for Dr. 
Cox who I respect his opinion, we wouldn't be talking about 
this. I think the world has mostly moved beyond this question. 
So this isn't really something that in 2015 we should be 
talking about, about whether ozone affects human health. We are 
way beyond that. And I saw in your written testimony, I saw 
some interesting things. I think one was that this idea that 
there might be a statistical test which you could assess 
causality. That is not the way we assess causality. Statistics 
are part of it. They are supportive of it. But causality is a 
judgment. It is a judgment. And you know, I know you would like 
a statistical test, but that isn't the way it works.
    The other thing is is that you cited my friend, Francesca 
Dominici, for one of her articles where she talked about the 
need to advance the science past just observational studies and 
to consider things like natural experiments. And I think that 
is a good idea. I mean, I endorse that as well. And I think the 
idea of a natural experiment is when these things happen, 
right, because we can't do a randomized control trial the way 
we can with a new drug. But when these changes occur, we can 
study what happened as a result of them. And MIT did I thought 
a great study, looking at the effect of the NO<INF>x</INF> 
trading and with the NO<INF>x</INF> going down and the ozone 
level going down by several points showing an improvement in 
healthcare costs among other things.
    So I think we have got that sort of evidence as well.
    Mr. Yarmuth. Thank you for that. Mr. Eisenberg, I am 
interested in your survey of members because among the many 
fine companies that operate in my district, I have two Ford 
plants, major Ford plants, one major appliance manufacturer, 
General Electric. I haven't heard from any of them about these 
ozone rules. As a matter of fact, I was with the manager of the 
Ford plant, the Ford truck plant, over the weekend, and he 
suggested that there were expansion plans on the way, new jobs 
being contemplated. We already have over the last 5 years 4,000 
more employees at Ford in my district.
    And we quite frankly haven't heard from any of those 32 
chemical companies about the ozone rules. We haven't heard from 
anybody. So I am curious as to whether--Louisville is a very 
special place where people just don't complain or whether--and 
there is probably some of that there--or whether you know, the 
responses that you got in your survey were kind of the natural 
inclination of people to say yes, regulation is bad. I would 
resist that.
    Mr. Eisenberg. So I think it is a legitimate question. You 
know, I can certainly say that a lot of those companies in your 
district are talking to us. So you know, we will urge them to 
also talk to you about it. You know, certainly a lot of the 
more energy-intensive industries are extremely concerned about 
this. Auto Alliance who represents the auto industry joined our 
comments I believe and came down on the same place we did.
    So you know, the voices are out there. I think we probably 
could do a little bit more to amplify them. But that being 
said, we are hearing it. We were a little surprised by the 
results in our study, too, in our poll, too. We kind of didn't 
know what we were going to get. We tried to be as unbiased as 
possible. We were very surprised, number one, that the folks 
really understood this issue because it is a technical issue. 
And number two, we are pretty adamant about the fact that it 
was going to be a real barrier to doing their business.
    Mr. Yarmuth. Right. I would suggest just in closing that 
with corporate earnings being at very, very high levels--even 
WD-40's earnings, I saw they had a nice earnings report in 
April. And it is kind of hard to say that this regulation is 
having a very significant adverse effect on American business. 
I yield back.
    Mr. Whitfield. The gentleman yields back. At this time I 
recognize the gentleman from Illinois, Mr. Shimkus, for 5 
minutes.
    Mr. Shimkus. Thank you, Mr. Chairman, and I am sorry. Like 
many people, I have been bouncing back and forth to the hearing 
below. But I am sure many of you saw the beginning of this 
hearing of last week when I was talking about really--and I am 
glad my friend from Kentucky is still here because although 
this is about the ozone, but for many of us, this is about the 
cumulative effects of regulation and the cost and challenges of 
responding by either the producers of energy or the 
manufacturing sector.
    And we weave the story about changing the rules midway 
through a baseball game. If you change the strike zone, you 
change the outs per inning. You bring in the fences. You take 
the fences out. You change the foul lines. How can business 
keep up with those changes? And then I talked about utility 
MACT, boiler MACT, cement rule, cross-state air pollution, 
111(d), 111(b), particulate matter, tier 3, and ozone. That is 
a lot. I believe that is a lot for manufacturers to respond to.
    And so when we have these hearings, right, like we did last 
week, we have it on one emission standard with the EPA saying 
there are health benefits. But we never have this full debate 
about--there are health benefits of being poor. There are 
health disadvantages of being poor, when people are dislocated 
by job and they lose their employment, they lose their health 
benefits.
    So the cumulative effects of these regulations--and they 
are going on at the same time. This ozone PM is a perfect 
example. We don't even have states complying with 75 parts per 
billion, and the EPA wants to ratchet it down to 65 or 60, 
while we are doing the other, 111(d) and 111(b) and all these 
other rules and regs that is very difficult for people to get 
their hands on.
    So in my time, if Mr. Eisenberg, Ms. Wesley, Mr. Freeman, 
and Ms. Taylor would--the basic question is do you think the 
EPA adequately evaluates the cumulative effects of the 
regulations?
    Mr. Eisenberg. So I think they--I mean, they are supposed 
to by executive order, by 13563.
    Mr. Shimkus. Which is a recent permutation. This is a 
recent executive order.
    Mr. Eisenberg. They don't seem to be doing it here. They 
really don't seem to be doing it here, and in particular, when 
you look at the conflict between this and some of the other 
regulations, I mean, first things first. There are dozens of 
regulations already on the books that take out the same 
pollutants that we are talking about here, NO<INF>x</INF> and 
VOCs. I mean dozens on almost every industry, which is why we 
are getting the reductions we are getting in addition to the 
ozone standard.
    But at the same time you start to think about, OK, so we 
had a truck manufacturer come in the other day. And they are 
dealing with a new fuel economy rule. And one of the challenges 
they have got is they are also dealing with, in expectation of 
the new ozone standard, a stricter NO<INF>x</INF> standard.
    Mr. Shimkus. Right.
    Mr. Eisenberg. Well, the controls that go on in an engine 
to deal with NO<INF>x</INF> use fuel. So it is another piece of 
equipment. And so you kind of can't have the two together. So 
as they are trying to ratchet one, they can't ratchet the 
other. They are really struggling with it. Hopefully they will 
figure it out, but it is a real challenge.
    Mr. Shimkus. I had an industry come in and say we can get 
to the NO<INF>x</INF> standards, but by doing so we increase 
the greenhouse gas standards. We just can't meet the same 
standards. Anybody else of the four that I offered want to 
respond?
    Ms. Wesley. I had----
    Mr. Shimkus. Just echo him?
    Ms. Wesley. Yes.
    Mr. Shimkus. OK. You want to add? OK. Then we had also Mr. 
Freeman and Ms. Taylor. Did you have any?
    Ms. Taylor. I definitely agree that I don't think at this 
time the cumulative effects of regulation are carefully being 
considered. That is very obvious. I can tell you from my 
standpoint. I am an environmental regulatory attorney by 
training. I mean, this is my bread and butter, and even with 
the subject matter expertise, it is just an enormous amount of 
information to manage. And quite frankly, compliance execution 
is very challenging. But that is nothing new.
    Mr. Shimkus. Mr. Freeman?
    Mr. Freeman. I am not aware that a lot of agencies if any 
of them do the cumulative overview. I haven't personally 
experienced that, but I do think that it is getting more and 
more complex and that is one of the challenges we have had. We 
have actually had an instance where we had a can of WD-40 that 
was under 100 percent California Air Resource Board 
regulations. Get another regulation. So we had regulatory 
overlap on the same product against two agencies that did not 
agree how they measured VOCs, let alone what the metric for 
success was.
    So we have actually gone beyond it just being complex to 
now they are getting into conflict at times.
    Mr. Shimkus. Thank you. And I will just end on this. I 
chair another subcommittee, and we deal with the NRC and we had 
a great hearing on the NRC. And the NRC evaluated this 
standard, it costs this much, and the next standard costs this 
much and the next standard costs this much. But it was not just 
additive. The true cost was multiplicative, and that is the 
challenge that we have with these multiple regulations. I yield 
back. Thank you, Chairman.
    Mr. Whitfield. The gentleman yields back. At this time I 
recognize the gentleman from West Virginia, Mr. McKinley, for 5 
minutes.
    Mr. McKinley. Thank you, Mr. Chairman. I am just trying to 
absorb all this information. I don't come from a medical 
background. Mine is an engineering background. So I am trying 
to understand a little bit, except some of the discussion about 
the health risks. But I have heard fairly consistently here the 
inclusion of asthma included. My son has asthma, so I have been 
sensitive to that from the day he was born.
    But I am curious that we seem to be attacking our 
industries as part of a solution. I am just going to deal with 
asthma, if we could. And those of you with a medical 
background, I want to accept that, that there could be 
something there. But I am also, since we have been talking 
about this the last couple of years have done additional 
research. And I find that there are other factors that are 
seemingly far more reasonably the cause of asthma attacks. 
Genetics, ethnicity, why we have more asthma attacks in our 
Afro-American community and in our Puerto Rican/Hispanic 
communities. He deals with poverty, poor diet, stress, 
overweight, and lack of exercise in our children, exposure to 
cigarette smoke, smokers. You have a greater likelihood of 
having an asthma attack if you also have dermatitis or hay 
fever allergies. Indoor air quality are all of these factors. 
Indoor air quality. We have dust mites, cockroach and mouse 
allergens, mold, animal dander, formaldehyde, dust. I could go 
on with all--but we are not addressing that at all. We are 
going to say let's go after manufacturing and have them lower 
from 75 down to perhaps 60. But we are not addressing what 
other reports are saying are far more causational than others. 
In fact, this report, Dr. Diette, from your Johns Hopkins 
institution, they have come out with a report themselves just 
recently and said that they can't find a connection. They say 
there is no statistical difference between the rate of asthma 
attacks in high-pollution areas than in non-pollution areas. I 
thought, that is interesting because I thought all the studies 
said there is directly a tie. Yet Johns Hopkins came out in 
opposition to that. So did the----
    Dr. Diette. Is that the Keets study?
    Mr. McKinley [continuing]. University of Utah at Los 
Angeles study. I could go on with that but----
    Dr. Diette. Is that the Keets study?
    Mr. McKinley. That was a study performed by Keets----
    Dr. Diette. Yes.
    Mr. McKinley [continuing]. McCormick, Pollack and----
    Dr. Diette. Just so it is clear, the conclusion of that 
study is not what you said it was, right? So the conclusion of 
that study has to do with the asthma prevalence, right, so not 
the asthma attack rate.
    Mr. McKinley. Asthma prevalence.
    Dr. Diette. Asthma prevalence.
    Mr. McKinley. Yes.
    Dr. Diette. And what that determined was that race and 
poverty were strong determinants but urban dwelling was not a 
strong determinant of the prevalence of asthma.
    Mr. McKinley. So I want to go to----
    Dr. Diette. There is no--well, excuse me. There is no 
indication----
    Mr. McKinley. I reclaim my time. I want to learn more from 
this but----
    Dr. Diette. I appreciate it.
    Mr. McKinley [continuing]. I also want to figure out a 
little bit about Hawaii. Hawaii operates right now from what I 
understand in their attainment counties, are operating at about 
right now currently at around 50 parts per billion, and they 
have been lower. But yet the rate of asthma, whether it is 
prevalence, attacks or what, is 42 percent higher than the 
national average here on the continent. I am puzzled with the 
disconnect.
    So I want to go back to yours, Dr. Cox, if we could because 
I was fascinated with one remark that you made and that was 
just--I heard and maybe you can clear it up--is that the 
concentration ozone may not be the issue. Ozone in and of 
itself, someone exposed to ozone, even at a lesser level, is 
going to have a triggered attack. Did I misinterpret that?
    Mr. Cox. No. I think that indeed people who have asthma may 
be triggered even at lower concentrations of ozone. I think you 
have hit the key point which is that ozone has many causes. I 
think the key policy question is what happens to asthma attacks 
and other health effects when there is a change in ozone level? 
And the discussion that Dr. Diette and I will put in writing 
has to do with the difference between statistical associations 
between levels of pollutants, pet dander, and other factors and 
what happens when you remove or reduce one of them. I think the 
most important scientific fact for us today is that decades of 
reduction in ozone levels have not produced the predicted 
health benefit.
    Mr. McKinley. My time is out, but I just was hoping that 
you might have been able to help clarify this. There are other 
issues that are far more prevalent in causing an asthma attack, 
and that is what I was looking for.
    Dr. Diette. I would interject, though. I would tend to 
ask----
    Mr. McKinley. We don't seem to be addressing that.
    Dr. Diette. Well, I think you should direct your question 
to me, though, and not a biostatistician. It is honestly not 
the statistician's job to determine what causes asthma, and I 
think you have done a wonderful job of laying out many of the 
different causes of asthma, and what you have highlighted is 
how generally complex it is as you must know from your son, 
right? And one of the principles of treatment of asthma is that 
you have to do environmental control on everything at once that 
you can identify that matters. So it is not sufficient to just 
take care of the mice or the cockroaches or the dust mites that 
you mentioned, nor is it enough to get rid of cigarette smoke. 
You have to do all of those things simultaneously for the 
asthmatic airways to be in the best state of inflammation and 
therefore not have an attack.
    So that is why it sounds complicated, and that is why it is 
complicated because all those factors coalesce together and 
form the syndrome of asthma.
    Mr. McKinley. But these reports say that is the biggest 
cause.
    Mr. Whitfield. The gentleman's time has expired. At this 
time I will recognize the gentleman from Ohio, Mr. Johnson, for 
5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. Dr. Cox, would you 
like to respond to what you just heard?
    Mr. Cox. Certainly. I fully agree and emphasize that there 
are multiple causes of asthma. I think the idea that we should 
expect benefits from removing or reducing one of them without 
reducing the rest, as Dr. Diette describes, leads directly to 
the empirical question, does it work? Does reducing ozone 
reduce the desired health benefits?
    Mr. Johnson. Right.
    Mr. Cox. For that question, for the question of how do 
changes in exposure change health effects, there is ample 
evidence, there is evidence from decades of measurements on 
ozone levels and measurements on hospitalization and indeed 
death rates, and it is I think very much the job of the 
biostatistician to say opinion aside, subjective judgment 
aside, political motivation aside, what do the data tell us 
about what has actually happened when ozone has been reduced? 
And the answer from the few studies that do not take a 
correlational approach or a judgment-based approach but take an 
empirical data-driven approach, give the perhaps disappointing 
but clear answer that there is no detectable health benefit or 
health effect from reducing ozone.
    Therefore, the belief that if we pour more energy and 
effort into further reducing ozone, we should expect fewer 
asthma attacks, better attendance at school, fewer mortalities, 
and the other benefits that we have heard about. That 
expectation is inconsistent with decades of empirical results 
to show that it just ain't so.
    Mr. Johnson. OK. Thank you very much. I have got 4 
children. I have got 6 grandchildren. I am very concerned about 
making sure that our air is clean, that our water is clean, 
that my children are drinking and eating and breathing the 
right kinds of things.
    But I think when we throw out and in most cases make 
secondary and oftentimes ignore the economic implications of 
some of the things that we are doing, take an area like mine 
where I represent 18 rural Appalachian counties. You rule out 
the economic implications of these rules, and you shut down 
companies and you eliminate opportunities, even if the health 
implications--and I am not a doctor--even if the health 
implications are bona fide, and I am not saying they are not, 
people don't have the money to buy insurance. They don't have 
the money to go to a doctor. Doctors aren't going to come to 
those areas to treat those patients. We can't ignore the 
economic implications.
    Mr. Eisenberg, your organization released two studies over 
the past year looking at the economic impacts from a lower 
ozone standard, and I have found the analysis by NERA Economic 
Consulting both informative and concerning. I looked at how 
many of my 18 counties would be out of attainment with the 
standard set to 65 parts per billion, and to my dismay, I 
learned that all 18 of those counties would be in non-
attainment.
    In my district we are seeing signs of life due to increased 
production of oil and gas, thanks to advances in fracking and 
horizontal drilling technologies. But the regulations that 
accompany this new ozone rule standard will most certainly slow 
and ultimately shackle the growth that we have seen in our 
communities as I pointed out to Ms. McCabe at our last hearing 
last week.
    In fact, let me read for the committee's benefit what NERA 
said about the new ozone rule and its impact on oil and gas 
production. A tightened ozone standard has the potential to 
cause non-attainment areas to expand into relatively rural 
areas. Where there are few or no existing emission sources that 
could be controlled to offset increased emissions from new 
activity. If non-attainment expands into rural areas that are 
active in U.S. oil and gas extraction, a shortage of potential 
offsets may translate into a significant barrier to obtaining 
permits for the new wells and the pipelines needed to expand or 
even maintain our domestic oil and gas production levels. 
Equally concerning is the EPA's Clean Power Plan which 
envisions a major shift nationwide from coal-fired power to 
natural gas, but with the rollout of these ozone regulations, I 
am afraid that our manufacturing industry will not have a 
source of reliable and affordable energy. This is really, 
really bad news for my constituents, for my state. I have spent 
all of my time talking and asking somebody else's question, and 
I don't get a chance to ask my own. So I think I have made my 
point. We can't throw out the economic concerns. Throwing out 
the baby with the bath water doesn't solve the problems. If we 
don't have an economy that can attack these problems with 
confidence and resources, we are never going to solve them.
    So with that, Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman's time has expired. At this 
time I will recognize the gentleman from Ohio, Mr. Latta, for 5 
minutes.
    Mr. Latta. Well, thanks very much, Mr. Chairman, and thanks 
for holding today's hearing. And thanks to all of our witnesses 
for being here. I really appreciate your time and your 
patience.
    Ms. Taylor, if I could start with a question to you, in 
your testimony you say that the EPA and states should carefully 
consider whether requiring manufacturers to achieve further 
drastic reductions in VOC content in consumer commercial 
products is technically feasible at this time and also worth 
the time and resources spent by manufacturers to comply for a 
low return on investment in terms of improved air quality.
    Would you like to comment on lowering the VOC content at 
the Henry Company's types of products that you have? And how 
long does it take to reformulate the products for roofing 
material out there to achieve those VOC content and then have 
to bring that to market?
    Ms. Taylor. Sure. Well, first let me say that my comment 
was specifically related to the State Implementation Plan 
phase. So not at the statutory level where we have already 
heard that cost is not considered, but really at the 
implementation plan phase where EPA and the states really work 
together to design the appropriate plan for the individual 
state.
    In terms of the impact on a company like Henry--and this is 
my job. That is what Director of Product Stewardship means. I 
mean I basically manager our SKUs. So I am the person 
responsible for restricting a specific SKU that, you know, for 
whatever reason can't comply with a VOC content limit in a 
certain jurisdiction.
    In terms of what we initially tried to do, when we receive 
new regulatory guidelines, and of course we make every attempt 
to comply because we are responsible corporate citizens, we go 
through our SKUs. We sort out our products in terms of what 
currently complies and what does not. That process alone 
probably takes a few months. Then after that process is over, 
we then look at the products that do not comply because those 
are the products obviously that we are concerned about in terms 
of the regulation. And we see if any of those are fairly easy 
to reformulate. Fairly easy, by the way, means like probably a 
year--fairly easy to reformulate and would go about making 
those changes.
    Then we take a look at the products that are not easy to 
reformulate, and by not easy, I mean the reformulation process 
could take 3 to 6 years. And that is not an exaggeration. We 
have a number of products where that has been the case.
    Mr. Latta. May I ask you, how many at the company would be 
working on that?
    Ms. Taylor. Oh, great question. Several. That would 
probably involve--in an approximately 450-person company like 
Henry, I would say probably between 15 and 20 would be involved 
in that, and quite frankly, we may even bring in outside 
consultants to assist us.
    Mr. Latta. So really not developing a new product, just 
making sure that the one or those products are compliant? 
Nothing to advance a new product?
    Ms. Taylor. That's correct.
    Mr. Latta. OK.
    Ms. Taylor. That's correct.
    Mr. Latta. Let me ask you another follow-up if I could 
because I thought what you said was kind of interesting, 
really, your closing line in your testimony. You said that the 
primary focus of the EPA should be to provide additional 
support to those air quality management districts that are 
currently in non-attainment status to help them reach 
attainment status under the current level before making the 
goal of reaching attainment status even more difficult for 
those states to obtain.
    And I think that maybe what you just said kind of answers 
that when you are looking at the amount of time that you are 
putting in for products that are already--I am going to assume 
we are going to meet those attainment where you were. But would 
you just want to elaborate just a little bit on that? What 
would you like to see the EPA out there doing?
    Ms. Taylor. Well, I think in terms of working with--so 
still working under State Implementation Plans because 
obviously they would have to be revised with any new statutory, 
regulatory changes. But really, taking a look at what are the 
main sources. For example as we are talking about VOCs and 
ozone, what are the main sources? And we know and Mr. Freeman 
has echoed this as well that consumer products are one of the 
smaller sources. And so from our perspective, we quite frankly 
often feel as though we have been given perhaps more attention 
than we deserve based upon the amount of pollutants that are 
coming from our particular industry. So in terms of what EPA 
could do, I would respectfully suggest that they work with the 
states to look at the larger sources of pollution and perhaps 
review available technology at the time, perhaps you know, just 
have even better--quite frankly, even something like better 
communication would help this entire process.
    As we have alluded to, Mr. Freeman and myself before, just 
in terms of EPA working with the individual state air 
districts, there are a number of challenges with that. So that 
would be quite frankly a good start.
    Mr. Latta. Well, thank you very much. Mr. Chairman, I see 
my time has expired, and I yield back.
    Mr. Whitfield. The gentleman's time has expired. At this 
time I recognize the gentleman from Texas, Mr. Flores, for 5 
minutes.
    Mr. Flores. Thank you, Mr. Chairman. Mr. Chairman, I would 
like to follow up on one of the comments that the Assistant 
Administrator said last week when she testified. I asked her 
the question about why has the EPA cost calculation gone down 
from $90 billion to take ozone requirements from 84 down to--
why the 2010 estimate was $90 billion and why their 2014 
estimate was $40 billion, and she said that it was because the 
2010 estimate was taking the ozone estimate from 84 parts per 
billion down to 65 parts per billion. That turned out to be a 
slightly disingenuous answer because she knew full well that 
the cost embedded to take it from 84 to 75 was 8.8 billion 
which means that 81 billion was left to take it from 75 down to 
the 65 estimate. So I will be sending her a letter to ask her 
to explain why the difference, the $39 billion difference in 
the estimate from $81 billion down to $42 billion in their 2014 
estimate so that we can try to get that cleared up for the 
benefit of the committee.
    Mr. Eisenberg, you had mentioned in your testimony that the 
EPA is proposing a new standard--and we have talked about this 
before, that we only can identify 35 percent of the necessary 
technologies to get to a 65 parts per billion standard and that 
therefore the unknown controls were 65 percent in terms of a 
path to compliance.
    So this being essentially that the EPA is proposing a 
standard where the majority of the control technology does not 
even exist. Is that correct?
    Mr. Eisenberg. They certainly haven't identified it. So 
that is our view.
    Mr. Flores. OK. And so that is obviously an area of 
concern. So one of the questions I have raised to the 
administrator last week was how should that be priced? And they 
relied on past calculations which were the easier ozone 
reductions to achieve than the one we are getting now because 
we are getting to the point of diminishing returns.
    So I would ask you a two-part question. As you get to the 
part of diminishing returns on control technology, how should 
the pricing work? Because you are getting diminishing returns, 
should it be higher or lower? And also, if it is unknown, 
therefore there is a higher risk that that technology doesn't 
exist, how should that be priced?
    Mr. Eisenberg. So that is an excellent question, and that 
is one of the real challenges in looking to the past, including 
the immediate recent past as a predictor of the future on this 
issue.
    NO<INF>x</INF> was controlled by CARE and a lot of other 
statutes, but that is why it is more expensive now because 
those technologies are now gone. And so the low-hanging fruit 
is gone. The high-hanging fruit is gone. Things are getting a 
lot more expensive. And in fact, you just run out pretty 
quickly when you start to do this.
    The question of modeling unknown controls, we continue to 
be surprised that EPA just draws this flat line at $15,000 per 
ton. I don't want to say they don't explain it. They do explain 
it. We just don't necessarily agree with where they are coming 
from. But the real issue is, they are essentially modeling 
hope, right? You are modeling the hope that we will figure this 
out.
    Mr. Flores. Yes, and that takes me to sort of the real 
world. My question to her was if the cost by an offset today is 
$170,000 a ton in the gulf coast area of Texas, wouldn't you 
price the offset technology at some premium over that versus 
coming up with the price of hope at $15,000 a ton. So shouldn't 
it be priced more at $300,000 a ton or something more 
reasonable? What is your comment on that?
    Mr. Eisenberg. So, the current offset prices in Houston are 
$175,000 per ton of NO<INF>x</INF> and $275,000 per ton of 
VOCs. In Southern California, they are $125,000 per ton of 
NO<INF>x</INF>. So there is definitely a disconnect there.
    Mr. Flores. So theoretically, the price of an unknown 
technology, since you have got the risk that it may never 
develop, should be higher in coming up with the----
    Mr. Eisenberg. We certainly expect it to be higher than 
$15,000 per ton.
    Mr. Flores. Ms. Taylor, I appreciate your prior testimony 
because you give a real-world perspective on these issues. And 
I don't think you answered this in your last--this is kind of a 
modification on the questions asked to you before, and this is 
more specific. Does the roof coating industry currently have 
the technology to achieve further significant reductions in the 
VOC content of their products?
    Ms. Taylor. That is an excellent question. It really 
depends upon the product. If you are talking about roof 
coatings, you can make an argument on both sides that perhaps 
the technology is currently available where we could achieve 
further significant reductions. If you are talking about 
roofing adhesives and sealants, which have different 
performance characteristics obviously than a traditional paint 
coating, then I would say no. We currently don't have the 
technology. We have been researching the technology for the 
past 2 \1/2\, 3 years, and we will have to do some--I don't 
know, we will have to get fairy dust or something. We will have 
to sort it out if further drastic reductions are required.
    Mr. Flores. OK. Thank you for your answers. I yield back.
    Mr. Whitfield. The gentleman's time has expired. At this 
time I will recognize the gentleman from Florida, Mr. 
Bilirakis, for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much. Mr. Freeman, you indicate cost to your company and 
industry to meet existing volatile, organic compounds to 
regulations have been very significant. Could you elaborate on 
the costs to date for your industry?
    Mr. Freeman. I am over here.
    Mr. Bilirakis. Oh, OK. Very good. Thank you.
    Mr. Freeman. Cost per day?
    Mr. Bilirakis. Yes, per day.
    Mr. Freeman. That is not a measure that----
    Mr. Bilirakis. No, cost to date for your industry.
    Mr. Freeman. If I look at our R&D effort alone, it would be 
several million dollars. Not included in that would be our 
ongoing supply chain costs I talked about a little bit earlier 
that can be a result of regulatory compliance, our ongoing 
marketing costs and our ongoing people costs. I have not added 
it all up. I am almost a little afraid to, but they are not 
easy costs to track necessarily, completely, and accurately. 
But we know that it has been significant----
    Mr. Bilirakis. Thank you----
    Mr. Freeman [continuing]. The view that we do have.
    Mr. Bilirakis. Thank you. Ms. Taylor, have the costs of 
compliance so far been substantial for your company and the 
roof coatings industry?
    Ms. Taylor. Yes. The cost--for us especially at Henry in 
particular, I think the most adequate measure would just be in 
the number of products that we have had, already have had to 
restrict from sale in certain air quality management districts. 
As I said, we have over 1,200 SKUs. There are certain parts of 
this country where we sell, you know, less than 50 or 60 
individual SKUs.
    Mr. Bilirakis. Thank you. Ms. Wesley, for the Baton Rouge 
Area, have the costs to meet ozone regulations in the past been 
significant? Do you believe that EPA's estimate to implement 
the proposed ozone rule are accurate or do you believe it will 
be more costly than expected?
    Ms. Wesley. I certainly believe it will be more costly than 
expected. We are hearing from our companies in the Baton Rouge 
Area and across the State of Louisiana the costs are excessive. 
I don't have an exact number for you, but we are hearing from 
our companies that it is significant.
    Mr. Bilirakis. OK. Very good. Thank you. Just this past 
week a survey was released indicating that 26 states have 
raised concerns about the role of background ozone, including 
both naturally occurring and internationally transported 
contributions to ground-level ozone as an achievability or 
implementation challenge. Mr. Eisenberg, what happens to 
permitting for new and expanding businesses when ozone 
standards are set close to background levels?
    Mr. Eisenberg. Thanks for the question. It makes it 
extremely hard. You can't get out of it. Think of the San 
Joaquin Valley for a minute. So in the San Joaquin Valley the 
air regulators there--and they are in really bad non-
attainment, probably the worst in the country. The air 
regulators there have said to meet the 70 or 75 parts-per-
billion standard, it is going to require--and this is the 
regulators saying this--it would require zeroing out emissions 
from all stationary sources, all off-road vehicles, all farm 
equipment, and all passenger vehicles. That is how you get 
there to account for the ozone. So we have got a real problem.
    Mr. Bilirakis. Yes. Do you believe EPA's proposal to bring 
down levels lower than the current levels which many are still 
in the process of being compliant will have a positive or 
negative impact on the manufacturing sector?
    Mr. Eisenberg. So we believe it will have a--the numbers 
show that it will have a manufacturing-wide negative impact. No 
sector is really spared here. Everybody gets hit.
    Mr. Bilirakis. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Whitfield. The gentleman yields back. At this time I 
will recognize the gentleman from Virginia, Mr. Griffith, for 5 
minutes.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate the 
members of the panel for being here today. I apologize I have 
not been here for the whole hearing because I have been at 
another hearing downstairs, a very important hearing as well. 
So I do apologize for that.
    Mr. Eisenberg, I want you to go over that again because it 
is staggering. You just indicated to Mr. Bilirakis that in 
order to comply based on background or foreign ozone levels you 
were talking about the San Joaquin Valley in California. I 
don't represent anything close to that, but I think it might be 
important to hear that again because it was staggering. Could 
you tell us again?
    Mr. Eisenberg. Yes. And this comes from their regulators. 
Because of geographic factors, because of ozone that is wafting 
in from Southeast Asia and just because of naturally occurring 
background, they have got a real problem. And so you could 
literally zero out all the industry there and you still 
couldn't make it.
    That is obviously an extreme case, but the problem is we 
are getting to levels that this is becoming a more normal 
problem. I don't think it is ever going to be quite that bad 
for anybody in Virginia. I hope it won't. But it is a real 
challenge, and this is why our members, the manufacturers in 
this country, are on edge because it means that we can't grow 
if we are in a place like that.
    Mr. Griffith. I think you told Mr. Bilirakis you would have 
to eliminate, what did you say, all the farm equipment?
    Mr. Eisenberg. All stationary sources, so all plants, all 
off-road vehicles, all farm equipment, and all passenger 
vehicles. Period.
    Mr. Griffith. Wow. And so what we are in essence doing is 
that we are shipping our jobs to other countries, say in Asia, 
and they are shipping us back the pollution that then causes 
this level to be so high that we would have to eliminate all 
passenger vehicles?
    Mr. Eisenberg. Well, in that area you would.
    Mr. Griffith. In that area, right, in the San Joaquin 
Valley. Been a long day already. Ms. Taylor, let's talk about 
something that you said in your written testimony. You 
indicated that the volatile organic compound regulation of 
consumer and commercial products in certain air quality 
management districts around the country are approaching the 
point of diminishing returns in terms of actually contributing 
significantly to air quality improvement.
    Ms. Taylor. Yes.
    Mr. Griffith. So what you're saying is is that you are 
really not going to have much impact if they go further on your 
industry? Am I interpreting that correctly?
    Ms. Taylor. That is correct, yes.
    Mr. Griffith. So they are really not going to have much 
accomplishment----
    Ms. Taylor. Well, the greatest gains which is not 
uncommon--the greatest gains in terms of VOC reduction were 
made over a decade ago, maybe more than two decades ago. And so 
now what we are working with, especially for certain categories 
of consumer products--I would imagine for these regulatory 
agencies, the goal is to get to zero grams per liter of VOC. 
And so we now have products that have very honestly gone from 
200 grams per liter down to 100, down to 75, down to 50, down 
to 25. There is just not much further for those products to go 
in terms of being able to sell a product at a price point that 
consumers will accept and that has performance characteristics 
that accurately reflect what we market the product for. So that 
is where we are.
    Mr. Griffith. And Dr. Cox, I know others have hit on this, 
but I thought that it was interesting in your testimony that 
there is a real question, and you testified, and I am quoting, 
``EPA's insistence that further reducing ozone is necessary to 
protect improved human health contrasts with decades of 
experience revealing no such benefits actually occur.'' Can you 
explain that?
    Mr. Cox. Yes. The current usual approach to assessing 
causation and to predicting whether benefits will occur is to 
ask selected scientists to form a judgment in light of the 
evidence that they consider to be relevant, and the scientists 
that EPA invited to form such judgments have made a judgment 
that because ozone is deleterious to the lung, reducing its 
level will have benefits. It is a very common-sense 
proposition. However, there is an alternative approach to 
looking at what will happen which is to adopt the natural 
experiment. The natural experiment says in hundreds of counties 
across the United States, ozone has gone down in some cases and 
has gone up in others. Let's look and see what difference those 
different histories have made to the corresponding histories of 
health defects. When that analysis is done, not based on 
judgment but based on data, no health benefit from reduction of 
ozone is seen. That doesn't mean that no reductions in health 
risks have occurred, but they have occurred just as much where 
ozone has gone up as where it has gone down.
    So based on empirical analysis for causation, the science 
would say there is no evidence of a causal impact of further 
changes.
    Mr. Griffith. Let me see if I can translate that because I 
only have a few seconds left.
    Mr. Cox. Thank you.
    Mr. Griffith. So what you are saying is if you take a look 
at the country as a whole, you don't see any health benefits 
gained where the ozone level has gone down. You might see that 
in individual patients but you don't see it across the board 
when you are looking at the entire population.
    Mr. Cox. That is correct.
    Mr. Griffith. Thank you. I yield back.
    Mr. Whitfield. The gentleman yields back. At this time we 
have just a couple more questions, and then we will conclude 
this hearing. But I will recognize the gentleman from Illinois, 
Mr. Rush, for 3 minutes.
    Mr. Rush. Thank you, Mr. Chairman. Dr. Diette, I wanted to 
give you a chance to respond to anything that you have heard 
here but particularly the Keets study that was the subject of 
controversy and how the study was mischaracterized. I want you 
just to respond to the mischaracterization of the study and any 
other thing you might want to add.
    Dr. Diette. Sure. Thanks very much. So it is being 
misrepresented, right? So first of all what we heard from the 
member was not even the facts from the study, but the study was 
simply one that looked at a few different factors and whether 
or not somebody actually has asthma, so not whether they have 
asthma attacks. It was not a study of air pollution. So it 
wasn't a study of air pollution, right? So we can't reach a 
judgment about ozone from the study. And what it showed was 
that being African-American and being poor were independent 
risk factors of having asthma and that living in a city was 
not.
    It can't even potentially have anything to do with the 
ozone question because ozone isn't concentrated in cities. It 
is in valleys. It is in suburbs. It is in rural areas and so 
forth. So it doesn't inform that question whatsoever. So that 
is why it is being misrepresented.
    But other things that I have heard that I think are 
unusual, right, so one, there are a whole bunch of issues here 
we have been talking about. One is I heard earlier in the day 
that somehow that the parts per billion is going to get down 
from 75 to 70 on its own with the current regulations, and then 
I am also hearing at the same time that there is no way to get 
below 75. So I think there is an inconsistency with what we are 
expecting to already happen and then what we are saying we 
can't do.
    And I would also just say, too, just probably the last 
comment I will have with Dr. Cox here, but what he is 
describing about there not being any benefit is not a 
mainstream view, right, that there a strong consensus among 
people who actually take care of sick patients with asthma and 
other lung diseases that ozone is harmful. It causes illnesses. 
It causes them to die. It is in our guidelines to tell people 
to avoid the outside when there are high ozone days. It is not 
made up stuff. This is based on science. So I just want to 
clarify that as well.
    Mr. Rush. Let me just ask you this. Is there any 
correlation between diet and ozone as was indicated or lack of 
exercise? Diet and asthma and lack of exercise and asthma? Are 
those some preconditions for asthma?
    Dr. Diette. So like a lot of things, it is very 
complicated, right? So the relationship between exercise is 
that for people that exercise outdoors, there is some evidence 
that somebody who exercises around the time when ozone is high, 
that that can affect their lung function among other things. So 
that is an issue. Diet, I don't think we know yet, right? Diet 
has the potential to be very helpful to us, and so to the 
extent that people have things that help fend off pollutants, 
there may be an issue with the American diet that we and others 
are working on about whether or not modifying that would be 
protective. But that is not a settled issue.
    Mr. Rush. Mr. Chairman, I want to thank you so very much 
for your giving me this time. I really appreciate it. Thank 
you.
    Mr. Whitfield. You are welcome. At this time I would also 
recognize--did you want to enter into the record----
    Mr. Rush. Yes, I want to enter into the record a letter, 
Mr. Chairman, from the Johns Hopkins University. This letter is 
Ms. Corinne A. Keet's response, Dr. Keet's response to a letter 
of inquiry from Senator Barbara Boxer. I want to enter it into 
the record.
    Mr. Whitfield. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Whitfield. And at this time, I am going to give 3 
minutes to Dr. Burgess of Texas for additional questions.
    Mr. Burgess. Thank you, Mr. Chairman, but in the interest 
of full disclosure, I don't have a question but I would like to 
deliver a soliloquy on the Montreal Protocol, and we are here 
today talking about things we can do to reduce the number of 
asthma episodes. But I just got to tell you as someone who has 
suffered with asthma his entire life, the withdrawal of an 
over-the-counter remedy for an acute asthma attack has been 
more injurious than anything else that I have seen in some 
time. And we can talk about whether or not we are reducing by 
1,000, 2,000, 3,000 the number of attacks that may occur across 
the country if we lower the makeup of ozone by an additional 
part per billion. But regardless of how the asthma attack 
starts, when it starts, for people who have reactive airway 
disease who are not on constant chronic treatment, it is 
generally 2:00 in the morning or weather changes, somebody 
brings a dog in the house, some trigger mechanism that you may 
not even know. But when it happens, there used to be a remedy, 
and the remedy was drive down to your all-night pharmacy and 
buy a Primatene mist inhaler. You can't do that anymore, and 
you can't do that because of the Montreal Protocol enforced by 
the Environmental Protection Agency. People tell me that the 
EPA or I am sorry, the FDA withdrew my asthma inhaler from the 
market, but that is actually not true. It was the EPA under the 
Montreal Protocol.
    Now, we had a great discussion about this a Congress or two 
ago, and I attempted to prevail or to get Congress to allow the 
continued sale of over-the-counter asthma medications. Let me 
just stress. There is no over-the-counter asthma rescue inhaler 
available now. There was one for a brief period of time that 
the gentlelady from Florida's district produced, but then that 
was taken off the market. So there is nothing out there for the 
person who has an asthma attack in the middle of the night. But 
no less than our former Chairman Emeritus, Mr. John Dingell, 
who had been on this committee for a long time, in precise, 
quantitative terms, said that the amount of chlorofluorocarbon 
in an asthma inhaler was, and I am quoting him directly, ``only 
a piddling amount.'' It seems nonsensical to have removed that 
from the market, and we have only done a disservice to 
asthmatics across the country. And it was the EPA that 
delivered that disservice.
    Thank you, Mr. Chairman. I will yield back.
    Mr. Whitfield. Well, thank you both, and I might say that 
that illustrates one of the concerns that we do have because 
when that was taken off the market, the price increase for 
people suffering from asthma as a replacement was significant, 
which raises the issue Ms. Taylor I think touched on this and 
Mr. Freeman. We do live in an innovative country. We have 
innovative people in business, and they are able to come within 
the guidelines with a lot of money and effort and time. But 
frequently, and not unusual, it does affect the performance of 
the product. And so eventually you sometimes reach the point 
where the product is not what it was, and so the market goes 
away.
    So this has been an informative hearing, and we genuinely 
thank all of you. Many of you came from long distances, and 
some of you just came from down the street. But we do 
appreciate your taking time to be with us and giving us your 
perspective on this important issue. And we look forward to 
containing to work with you as we continue to address this 
issue. And I am also going to ask unanimous consent to entering 
the following documents into the record: We have a March 17, 
2015, letter to EPA Administrator McCarthy from the Baton Rouge 
Area Chamber and 15 other chambers regarding EPA's proposed 
ozone rule. And we have about 10 letters here to EPA 
Administrator McCarthy from Louisiana chambers outside the 
Baton Rouge Area. We have a statement of the American Chemistry 
Council and a statement of the American Forest and Paper 
Association requesting retention of the current ozone standard. 
Without objection, I will enter that into the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Whitfield. We will keep the record open for 10 days, 
and once again, we look forward to the reply of Dr. Diette and 
Dr. Cox from--someone asked you all a question. You said you 
would get back with them. I appreciate that, and with that, we 
will conclude today's hearing.
    [Whereupon, at 12:40 p.m., the subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    Today we continue our work examining EPA's proposed new 
National Ambient Air Quality Standard for ground-level ozone, 
and in particular its impact on jobs and the manufacturers who 
will bear much of the compliance burden.
    At the beginning of his second term, President Obama set a 
goal of creating one million new manufacturing jobs. 
Unfortunately, President Obama's rhetoric has failed to match 
up with the economic realities of the policies coming out of 
the EPA. The new rules have been wide ranging, and each one on 
their own, like the Clean Power Plan, will harm our economy. 
Taken collectively, the results could be disastrous.
    This proposed rule is a tough pill for the manufacturing 
industry to swallow. An ozone nonattainment designation would 
make it significantly more difficult for industries to invest 
and create businesses in communities across the United States. 
Even existing factories would face higher operating costs and 
red tape. EPA estimates that hundreds of counties across the 
country would not meet the proposed standards, including many 
in Michigan. In southwest Michigan, in Allegan County, you 
could remove all of the human activity and the region would 
still be in non-attainment because of ozone generated in 
Chicago, Milwaukee, and Gary, Indiana.
    The economic consequences of this proposed rule are very 
real. I recently received a letter from Southwest Michigan 
First, an economic development organization in Kalamazoo, 
Michigan. The CEO Ron Kitchens wrote to me yesterday voicing 
their concerns with the EPA's proposal.
    In the letter, Ron wrote, ``The addition of red tape and 
more severe requirements in these non-attainment areas would 
stifle economic development and job growth including much 
needed highway funding in our region and state.''
    Any proposal must take into account economic growth and job 
creation--and the ozone revisions do not. I strongly support 
efforts to reduce smog and I supported the ozone standard 
finalized in 2008. We have seen significant progress and I 
endorse reasonable measures to ensure that air quality 
continues to improve. I believe that we don't need a new ozone 
standard--we need EPA to implement the existing one. Thank you.
                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
